<html>
<title> - [H.A.S.C. No. 112-136]CREATION AND IMPLEMENTATION OF THE NATIONAL NUCLEAR SECURITY ADMINISTRATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 112-136]
 
                      CREATION AND IMPLEMENTATION

                        OF THE NATIONAL NUCLEAR

                        SECURITY ADMINISTRATION


                               __________


                                HEARING


                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JUNE 27, 2012

                                     
[GRAPHIC] [TIFF OMITTED] CONGRESS.#13

                                     




                  U.S. GOVERNMENT PRINTING OFFICE
75-145                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MICHAEL TURNER, Ohio, Chairman
TRENT FRANKS, Arizona                LORETTA SANCHEZ, California
DOUG LAMBORN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
MAC THORNBERRY, Texas                MARTIN HEINRICH, New Mexico
MIKE ROGERS, Alabama                 JOHN R. GARAMENDI, California
JOHN C. FLEMING, M.D., Louisiana     BETTY SUTTON, Ohio
SCOTT RIGELL, Virginia               RON BARBER, Arizona
AUSTIN SCOTT, Georgia
                 Drew Walter, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                      Eric Smith, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Wednesday, June 27, 2012, Creation and Implementation of the 
  National Nuclear Security Administration.......................     1

Appendix:

Wednesday, June 27, 2012.........................................    13
                              ----------                              

                        WEDNESDAY, JUNE 27, 2012
     CREATION AND IMPLEMENTATION OF THE NATIONAL NUCLEAR SECURITY 
                             ADMINISTRATION
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Turner, Hon. Michael, a Representative from Ohio, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Aloise, Eugene, Director, Natural Resources and Environment, U.S. 
  Government Accountability Office...............................     4
Brooks, Amb. Linton F., Senior Advisor, Center for Strategic and 
  International Studies, Former Administrator, National Nuclear 
  Security Administration........................................     1
Kuckuck, Dr. Robert W., Former Principal Deputy Administrator, 
  National Nuclear Security Administration, Former Director, Los 
  Alamos National Laboratory.....................................     3

                                APPENDIX

Prepared Statements:

    Aloise, Eugene...............................................    41
    Brooks, Amb. Linton F........................................    22
    Kuckuck, Dr. Robert W........................................    34
    Sanchez, Hon. Loretta........................................    20
    Turner, Hon. Michael.........................................    17

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Thornberry...............................................    59
    Mr. Turner...................................................    59

Questions Submitted by Members Post Hearing:

    Mr. Heinrich.................................................    88
    Mr. Langevin.................................................    87
    Ms. Sanchez..................................................    75
    Mr. Turner...................................................    63
     CREATION AND IMPLEMENTATION OF THE NATIONAL NUCLEAR SECURITY 
                             ADMINISTRATION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                          Washington, DC, Wednesday, June 27, 2012.
    The subcommittee met, pursuant to call, at 3:35 p.m., in 
room 2118, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM 
        OHIO, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. Call to order the Strategic Forces 
Subcommittee. We are going to be under a severe time constraint 
because votes are occurring at approximately around 4:00, and 
when they do, they are going to be a very long series, and then 
all the Members have an obligation after that. So we're going 
to do a real short compression; both the ranking member and 
myself are going to waive our opening statements and merely put 
them into the record.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 17.]
    [The prepared statement of Ms. Sanchez can be found in the 
Appendix on page 20.]
    Mr. Turner. I want to recognize Ron Barber of Arizona, who 
is our new member. We welcome you.
    And we would like to immediately then turn for opening 
statements to our panel members with the prospects of maybe 
doing some 2-minute rounds of questions, so as people have 
things, they might be able to get to theirs. So, Ambassador 
Brooks, we will begin with you.

STATEMENT OF AMB. LINTON F. BROOKS, SENIOR ADVISOR, CENTER FOR 
  STRATEGIC AND INTERNATIONAL STUDIES, FORMER ADMINISTRATOR, 
            NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Mr. Brooks. Thank you, Mr. Chairman, Ranking Member 
Sanchez, members of this committee. I have submitted a detailed 
statement, and what I am going to do is make a series of 
assertions which I hope that statement either amplifies or 
backs up. I am going to describe the situation through January 
2007 when I left the NNSA [National Nuclear Security 
Administration]. I am not qualified to speak in detail about 
today.
    NNSA was formed in the belief that reforms, especially in 
security, would be impossible within the Department of Energy 
bureaucracy as it existed at the time. In standing up NNSA we, 
or at least I, had three broad objectives: first, to streamline 
the organization, avoid duplication, and clarify roles and 
responsibilities of Federal officials; second, to restore the 
appropriate division of labor between the national labs and 
their Federal overseers. We believed, and I believe today, that 
the right relationship is for the Government to decide what to 
do and the laboratories to decide how to do it. And, third, to 
establish the appropriate degree of autonomy within the 
Department of Energy. And we adopted the term ``semi-
autonomous,'' which is not what the legislation actually says, 
to describe what we were seeking.
    We started by trying to correct the organizational 
inefficiencies and clarify responsibilities, and while that is 
a never-ending process, I think we made significant process--
progress, which I have detailed in my statement.
    We were much less successful in establishing the proper 
balance in oversight, especially at the national laboratories. 
In part this was because we failed utterly at developing an 
acceptable common understanding with DOE [Department of Energy] 
on what semi-autonomy meant. And I have provided a fair amount 
of additional detail on that point in my detailed prepared 
statement.
    Now, what lessons should the committee draw from our 
experience? First, I think our broad approach was right then 
and I think it's right now, but the effectiveness of a semi-
autonomous NNSA is too dependent on the personalities and 
preferences of officials outside of the organization. 
Competent, dedicated people can make any organization work, and 
virtually all NNSA senior officials and all DOE senior 
officials are both dedicated and competent. But the present 
arrangement required, at least in my day, constant effort from 
senior officials, and thus diverted them from focusing on the 
mission. Ultimately, as I said in a statement I submitted for 
an earlier hearing, I believe NNSA will need to be made a 
stand-alone organization.
    Secondly, clear lines of authority and accountability are 
made more difficult by the number of external bodies to whom 
the administrator is in some sense accountable. Separating NNSA 
from the rest of DOE will solve part of that problem, but it 
won't solve all of it. There will still be the Defense Board, 
the Congress, the GAO [Government Accountability Office], the 
White House, somebody's Inspector General.
    And finally, if the Congress wants, as I believe it should, 
the relationship between NNSA and the laboratories that I 
described as part of our vision, it has to guard against the 
tendency when problems arise to ask why Federal overseers 
didn't find the problem in advance and prevent it through more 
detailed audits and more detailed inspections.
    The pressure, which in fairness has not primarily come from 
this committee, at least when I was doing this, makes it more 
difficult for us to preserve the important distinction between 
the Government responsibility to say what is to be done and the 
laboratory leadership responsibility to determine how to do it.
    Thank you, and after you have heard from my colleagues, I 
look forward to your questions.
    [The prepared statement of Mr. Brooks can be found in the 
Appendix on page 22.]
    Mr. Turner. Thank you. Doctor.

  STATEMENT OF DR. ROBERT W. KUCKUCK, FORMER PRINCIPAL DEPUTY 
ADMINISTRATOR, NATIONAL NUCLEAR SECURITY ADMINISTRATION, FORMER 
            DIRECTOR, LOS ALAMOS NATIONAL LABORATORY

    Dr. Kuckuck. Chairman Turner, Ranking Member Sanchez, 
members of the committee, thank you for inviting me this 
afternoon. I also have submitted a written statement, and I 
have a few comments to make here, and I will abbreviate them, 
given the time constraint we are under. My comments come from 
40 years at the Lawrence Livermore Laboratory under DOE, 2 
years helping the Ambassador and General Gordon as we laid out 
NNSA, and then returning 5 years later to be the director of 
Los Alamos to work under NNSA. So I have a very dimensioned 
view of what we have been through.
    I was going to talk a little bit about our vision in 
setting the organization up. I think I will skip over that 
since it is in written material, and you have reports to the 
Congress prior to this. I would only say that I think we did 
make progress early on, but it was very clear even then that 
this was going to be a project that required years of effort, 
continual leadership, and that was even assuming that we were 
going to be in a semi-autonomous organization, which didn't 
happen.
    Let me jump forward to the 2 years I spent at the Lawrence 
Livermore Laboratory--excuse me, at the Los Alamos Laboratory 
in 2005 and 2006. When I arrived, it wasn't long to see that 
the vision that we had in mind had not been achieved. To my 
disappointment, I found the working environment there to be at 
least as burdensome as it was in my experience at Livermore a 
decade before that and, unfortunately, even more adversarial.
    Tasking was coming from various parts of the Federal 
Government and from various levels of the Government. Some of 
it was explicit, which of course required unnecessary work and 
expense from my judgment, but much was implicit; and implicit 
to me were taskings that we got because of the site office 
withholding approval documents in a frustrating bring-me-
another-rock kind of exercise. It was exhausting and costly. 
There was implicit tasking coming from site office members 
making--Federal employees making comments to the staff at the 
laboratory, and from the Defense Nuclear Facilities Safety 
Board who had permanent representatives on site at Los Alamos 
also making comments to the staff, so that the staff was sort 
of being told don't go there, we are not going to approve it 
when the time comes.
    The implicit tasking embedded inefficiencies and lost 
opportunities as laboratory employees invented workarounds, 
compromises to avoid conflicts with these overseers. I saw many 
examples that cost millions of dollars and many months and 
months of delay. I am still serving on advisory boards to all 
three nuclear weapons laboratories, and so I have a strong 
perception that things have not improved since I left Los 
Alamos.
    I have looked at your legislation, H.R. 4310. To me it 
feels a little bit like an attempt to legislate the vision that 
we indeed had back in 2001. Frankly, I think that vision was 
really management 101, with responsibilities clear and so 
forth.
    Will your bill be enough? I am skeptical. It may be 
probably necessary, but may be insufficient. I think it is very 
difficult to legislate the trust, the teamwork, the judgment, 
the leadership, the balance of risk and mission that is so 
sorely needed in the endeavor we have today. However, I think 
it is possible to legislate conditions that will facilitate 
achieving those ideals.
    It has been clear to me in my almost 50 years in this 
enterprise that the DOE laboratory management relationship has 
been deteriorating for several years now, maybe back to the 
days of the tiger teams; year by year, step by step, rule by 
rule, contract by contract.
    The creation of NNSA was an attempt to reverse this trend. 
I personally believe it has failed to do so. I also am 
concerned that perhaps we have reached or are nearly reaching 
the tipping point where the solution by partial organization 
change won't be possible.
    I thank you. I will be happy to answer questions.
    [The prepared statement of Dr. Kuckuck can be found in the 
Appendix on page 34.]
    Mr. Turner. Mr. Aloise.

  STATEMENT OF EUGENE ALOISE, DIRECTOR, NATURAL RESOURCES AND 
       ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Aloise. Mr. Chairman, Ranking Member Sanchez, and 
members of the subcommittee, I am pleased to be here today to 
discuss the creation and implementation of NNSA. Today my 
remarks will focus on NNSA's early experiences, organizing and 
operating as a separately organized agency within DOE, and 
NNSA's progress in correcting longstanding problems.
    For years before NNSA was established, external studies 
found problems with the organization and operation of what is 
now NNSA's principal organization, DOE's Office of Defense 
Programs. These studies cited continuing problems in the areas 
of overall management, organization, priority setting, and 
maintenance of a viable infrastructure and workforce.
    In short, Mr. Chairman, prior to the enactment of Title 32, 
DOE's organization was a mess, with no clear lines of 
authority. The budget for weapons activities was in two big 
buckets of money that were sent to the labs and plants with 
little or no transparency and accountability for what it was 
being spent on. Title 32 allowed NNSA to step back and come up 
with something better.
    While we continue to identify problems with NNSA's budget 
processes, the current budget structure is a vast improvement 
over what existed prior to the enactment of Title 32. Still, in 
our view, NNSA has never been given a chance to work as the 
Congress intended. After the enactment of Title 32, DOE and 
NNSA struggled to determine how NNSA should operate as a 
separately organized agency within the Department, largely 
because there were no useful models in Government to follow.
    Another complication was DOE's January 2000 implementation 
plan which did not define how NNSA would operate within DOE; 
instead, reflecting the opposition of the then-DOE leadership 
to the creation of NNSA, the implementation plan dual-hatted 
virtually every single statutory position in NNSA with DOE 
officials. This practice caused concern about NNSA's ability to 
function independently.
    Also the lack of formal agreements between DOE and NNSA in 
a number of key areas, such as budgeting and procurement and 
interpersonal disagreements led to conflicts that prevented 
effective organizations--operations.
    Specifically, in January 2007 we reported on the conflict 
between NNSA and DOE's counterintelligence offices. In the case 
of both dual-hatting and the counterintelligence dispute, 
Congress had to step in and correct the situation. Since then 
NNSA has made considerable progress in resolving longstanding 
management deficiencies and security weaknesses.
    However, major improvements are still needed in NNSA's 
management of major projects and contracts, and vigilance is 
needed in the area of security to ensure that improvements are 
sustained. In some areas NNSA is viewed as a success. 
Importantly, it has continued to ensure that the nuclear 
weapons stockpile is safe and reliable without underground 
testing. Nevertheless, NNSA still struggles to define itself as 
a separately organized agency within DOE, and the management 
problems that exist have led to calls to increase NNSA's 
independence from DOE.
    We continue to believe, as we concluded in our January 2007 
report, that while reforms are needed, drastic organizational 
changes are necessary and questioned whether such changes would 
solve the agency's remaining management problems. Having said 
that, GAO stands ready to assist the Congress and this 
subcommittee in looking for ways to ensure more effective 
management of NNSA's programs and contractors.
    Mr. Chairman, that concludes my remarks. I would be happy 
to address any questions you or the ranking member or any other 
member of the subcommittee may have.
    [The prepared statement of Mr. Aloise can be found in the 
Appendix on page 41.]
    Mr. Turner. Thank you. I think what we will do is we will 
do one round of 2-minute questions if that is okay with 
everyone, and that way everybody hopefully will get an 
opportunity to speak. And I'll start.
    In the initial statements, there has been a lot of 
referencing of what the semi-autonomous nature of NNSA was 
supposed to accomplish. Right-sizing, reinvigorating the staff, 
reducing burden, employee numbers. Employee numbers have gone 
back to the same level that they were prior to NNSA. On the 
administration side, we have not one life extension program 
that's on track.
    Mr. Aloise, you said, you know, they have got progress and 
success. Not one life extension program is on track. The fact 
that they have been able to certify that it is safe and 
reliable is not because of refurbishment and life extension. It 
has been because, you know, obviously some of the legacy work 
has been done, but not one of the life extension programs is on 
track.
    I was wondering if everyone could speak for a moment about 
semi-autonomy. Ambassador Brooks, you said it should be 
absolutely independent, but it appears that semi-autonomous 
failed. What was--what--in saying that it failed and we need to 
go autonomous, why hasn't semi-autonomous worked? And, Mr. 
Aloise, when you get to your portion, I'd like you to give me 
that context of how we can consider this success when not one 
life extension program is on track. So there are calls for a 
number of groups, besides just the two gentlemen sitting here, 
who are independent groups who have indicated that perhaps they 
should be fully autonomous. Speak for a moment about the semi-
autonomy and what it was to achieve and why it can't. And then, 
Mr. Aloise, if you would give us the contrast, because you 
don't believe that how semi-autonomous could be working when 
not one life extension program is on track. Ambassador Brooks, 
2 minutes.
    Mr. Brooks. There are two sets of problems, structural and 
cultural. Structurally, example: the Clinger-Cohen Act and the 
relationship between having an integrated information system 
and a semi-autonomous NNSA worked out by good people working 
together, but you can't have one department directed from two 
people.
    Example: environmental cleanup at NNSA sites. The 
responsibility of the Assistant Secretary for Environmental 
Management, who lacks the legal authority to direct NNSA sites. 
I tried to move that responsibility to NNSA and was not able to 
convince the Congress in the first term, and my own Secretary 
in the second term, to support that. So we had a workaround 
which was Byzantine, probably wouldn't have stood up to a 
legal----. Example: number of duplicating functions----
    Mr. Turner. Ambassador, I am going to ask you to finish 
your statement for the record.
    [The information referred to can be found in the Appendix 
on page 59.]
    Mr. Turner. Doctor and Mr. Aloise, 30 seconds apiece.
    Dr. Kuckuck. Thirty seconds. I won't be as erudite as my 
learned colleague here, but I believe that it never was given a 
chance to happen. I believe that we never left DOE in the whole 
process. The oversight of rules were all the same, felt the 
same, and I don't think anybody believed we were going to see 
something different.
    Mr. Turner. Mr. Aloise, how can we call it a success when 
not one life extension program is on track?
    Mr. Aloise. Well, my point was that we have a safe, 
reliable stockpile, and that is a success. But you are 
absolutely right about the life extension programs; and there 
is more than that. There are the major projects that are 
problematic.
    Mr. Turner. Very good, thank you. Ranking Member.
    Ms. Sanchez. Thank you, Chairman. Mr. Aloise, when the NNSA 
was formed, the defense nuclear facilities remained under 
independent health and safety oversight of the Defense Nuclear 
Facilities Safety Board. So based on your experience, was that 
a good decision at the time? Why or why not? And do you think 
that the NNSA defense nuclear facilities should still remain 
under independent oversight by the Defense Nuclear Facilities 
Safety Board, or do you think it would be a better decision to 
place those facilities under the Nuclear Regulatory Commission 
regulation?
    Mr. Aloise. Well, GAO is on record promoting external 
regulation of DOE facilities. DOE self-regulates itself now. So 
we believe in a strong, independent regulatory function.
    Ms. Sanchez. And I would ask--thank you, Mr. Aloise. And I 
would ask all the witnesses: Has the oversight of the nuclear 
complex improved as a result of the NNSA, the oversight of the 
overall? Ambassador?
    Mr. Brooks. In some areas yes, in some areas no.
    Ms. Sanchez. Could you denote very quickly what some might 
be for ``yes'' and what some might be for ``no''?
    Mr. Brooks. Security is clearly better, safety is no worse, 
but we haven't removed the burden on the labs. Nuclear safety 
and the Defense Board, the relationship is not, was not when I 
was there, working well. That is separate from saying what a 
better relationship would be on which--but there was too much 
mission creep from the board.
    Ms. Sanchez. Thank you. Doctor.
    Dr. Kuckuck. I would say that the board did both. I think 
in the early stages it certainly brought a stronger safety 
culture to the laboratories' nuclear facilities. Operations 
are--conduct of operations are much more formal, employees are 
much safer, ISSM [Integrated Safeguards and Security 
Management] is embedded, but I think it is now past its day and 
it has become a point of when is enough enough. The balance is 
gone, and I think that the NRC [Nuclear Regulatory Commission] 
would look to me as a more balanced model to then put our 
nuclear weapons labs under.
    Ms. Sanchez. Thank you, Doctor. And Mr. Aloise.
    Mr. Aloise. As I mentioned, we are in favor of external 
regulatory oversight. That would be a model that we have 
considered.
    Ms. Sanchez. Thank you. Thank you, Mr. Chairman.
    Mr. Turner. Thank you, Ms. Sanchez. Again, too, because of 
the constraint of time, what we are going to do is we will get 
to everyone, you will get to ask your question, we will start 
the clock at 2 minutes, and then we can submit all the other 
questions for the record.
    Mr. Thornberry, you are next.
    Mr. Thornberry. Just to follow that for a second. 
Ambassador, and then Doctor, would you describe what you 
believe the proper relationship should be between Defense 
Nuclear Facilities Safety Board, if any, or if it should be 
replaced by the NRC as far as this independent outside 
oversight of these NNSA facilities? How should that be 
structured? Because that has been one of the biggest issues.
    Mr. Brooks. My goal when I was administrator was to make us 
completely indifferent to that. I told the Secretary I was 
working so that his successor--because I thought it would take 
me at least 4 more years--was able to say the board is no 
longer necessary, we are doing the job well. We didn't succeed 
in that. Not clear whether we can succeed.
    I think the safety board or some external agency needs to 
provide a check on the operation of the Department. I think it 
needs to do so considering, first, getting the mission done--I 
mean, you can be perfectly safe if you stop working--and 
avoiding mission creep through asking for information.
    Mr. Thornberry. And let me just interject. That's the 
issue. Defense, the board, doesn't have any responsibility to 
get anything done. And so part of the problem that people 
complain about is you have somebody who can put up a red card 
and stop everything, but they have no accountability for making 
anything happen.
    Mr. Brooks. I agree with that, sir, and that was 
frustrating to me. On the other hand, the board was created 
because the Department was all screwed up, and I am not sure I 
want to look you in the eye and say I had made everything all 
better.
    Dr. Kuckuck. I would think that relationship should be, 
should start from a clear and reasonable set of requirements 
that are designed in some collaborative form so that everybody 
understands where they are coming from, but the oversight 
organization should have the authority for the final design of 
those requirements. I think then that the oversight should be 
done by monitoring performance against those clear standards, 
and I think that areas of nonperformance should be a more 
collaborative approach to be resolved, but again the oversight 
has to be authoritative and in place.
    Mr. Turner. Mr. Aloise, if you have comments on this, you 
could submit them to the record.
    [The information referred to can be found in the Appendix 
on page 59.]
    Mr. Turner. Turning to Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Gentlemen, I 
appreciate your testimony today.
    Ambassador Brooks, the PFIAB report found that DOE and 
the--quoting--``the DOE and the weapons laboratories have a 
deeply rooted culture of low regard for and at times hostility 
to security issues, which has continually frustrated the 
efforts of its internal and external critics, notably the GAO 
and the House Energy and Commerce Committee. Therefore, a 
reshuffling of the offices and lines of accountability may be a 
necessary step toward meaningful reform, but it most almost 
certainly will not be sufficient. Even if every aspect of the 
ongoing cultural structural reforms is fully implemented, the 
most powerful guarantor of security at the Nation's weapons 
laboratories won't be laws and regulations or management 
charts; it is going to be the attitudes and the behavior of the 
men and women who are responsible for the operation of the labs 
each day. So these will not change overnight, and they are 
likely to change only in a different cultural environment, one 
that values security, adds a vital and integral part of the 
day-to-day activities and believes it can coexist with 
science.''
    So with that, can you talk about the, you know, whether or 
not there is sufficient progress on increasing accountability, 
at least, and what challenges remain to improve accountability 
and cost-effectiveness?
    Mr. Brooks. At least on the Federal side, I think we have 
made lines of responsibility, and therefore accountability, 
clear.
    I guess I would push back, sir, on the idea that the 
laboratories, as I knew them, didn't care about security. The 
problem--there is a cultural problem, but the cultural problem 
is not about security but about security through detailed 
procedures. The same type of problem exists in the safety area. 
And that would be fine, except we know that if you don't have 
detailed procedures, things screw up.
    So the culture that we are building in slowly, I think 
there is actually a demonstrable improvement in that, as Dr. 
Kuckuck mentioned, but I think that I erred in believing that 
we could change that culture more rapidly than we have been 
able to.
    Dr. Kuckuck. I would agree with the Ambassador. I think the 
attitudes of the laboratory scientists are very much in line 
with improved safety and procedures to the degree the 
procedures are appropriate. I think, unfortunately, the 
attitude now, we are at risk of straining this success that we 
have already achieved because the oversight is now so 
oppressive and past the limit of a good balance that I think 
the attitudes are now turning toward the overseers rather than 
against safety itself.
    Mr. Langevin. So let me ask the panel this question: Was 
NNSA a good idea?
    Mr. Brooks. Somebody has got to answer. Yes. It was worth 
trying. It may still be worth trying. It hasn't worked as well 
as we hoped.
    Dr. Kuckuck. Quite agree.
    Mr. Aloise. Absolutely, yes.
    Mr. Turner. Your time has expired. Turning to Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Doctor, in your opening statement you made reference to 
deterioration of the lab under DOE, and you thought that it may 
be beyond the point of redemption. Can you expand on what you 
meant by that?
    Dr. Kuckuck. Yes, sir. I didn't mean to make the point that 
you heard in that. What I was referring to was the management 
relationship between the DOE and the laboratory was 
deteriorating. The laboratories were not deteriorating at all.
    Mr. Rogers. Okay. Thank you. That is all I have, Mr. 
Chairman.
    Mr. Turner. Dr. Fleming.
    Dr. Fleming. Yes, thank you, Mr. Chairman.
    Dr. Kuckuck, your prepared statement references problems 
caused by, quote, implicit tasking resulting from such 
behaviors as withholding the necessary approval documents and 
frustrating, bring-me-another-rock exercises. It kind of sounds 
to me like there are a lot of authorities but none with enough 
authority to control the process. Can you elaborate on your 
metaphor, give me a better idea of what you are trying to 
explain?
    Dr. Kuckuck. I would almost react to your statement by 
saying I think there is too much authority implicit at all 
turns of the laboratories' surrounding oversight space. An 
extreme example of that that I saw while I was at the 
laboratory, that I will make very short, given the time, is the 
laboratory had a significant amount of nuclear material located 
at a certain place that we were using to conduct a program. And 
as we continued every year to raise the bar on security 
demands, the Department decided--the NNSA decided that they 
wanted those put in a more secure place. There was an amount of 
material that would take a couple of years to package and 
process and remove, and the new site was going to be the Nevada 
Test Site. We felt that the 2 years of sitting where it was 
wasn't appropriate, so we came up with an idea of putting a 
small parking lot inside the PIDAS [Perimeter Intrusion 
Detection and Assessment System] in the nuclear plutonium 
facility, TA-55, move these four SST [Safe Secure Trailers]--
certified vehicles for carrying the stuff around the Nation 
every day--move four of those in place, put the material in 
there, and work from them safely stored in there for this 18 
months or so. That is what we started out with for a million 
dollars.
    The safety board didn't like that, continued to push back, 
and a year later we ended up with a category 2 nuclear 
facility, which was a pad of cement three foot deep, 
seismically qualified, with a roof over it in case lightning 
didn't hit these trucks that had been moving around the 
country, on and on and on, at a result of a $7 million cost 
instead of a $1 million cost. And ironically, the entire year 
we sat there doing that, the material sat in the area that was 
considered inappropriate in the first place.
    Dr. Fleming. So, really, trying to satisfy too many bosses, 
too many authorities.
    Dr. Kuckuck. Exactly.
    Dr. Fleming. Requiring overlapping authorities that are 
contradictory in some cases.
    Dr. Kuckuck. The final decision has to be an approval from 
the site office, but it is clear that direction is coming from 
all sectors and interfering with that process.
    Dr. Fleming. Thank you.
    Mr. Turner. Mr. Brooks.
    Mr. Brooks of Alabama. Thank you, Mr. Chairman. Recurring 
security problems within the Department of Energy were a major 
factor in the creation of the NNSA.
    This is a question for any or all of you to answer. Why was 
the Department of Energy unable to get a handle on these 
security problems without congressional intervention, part one; 
part two, how effective and what has NNSA done to correct these 
security issues?
    Mr. Brooks. Why the Department couldn't get a handle on it 
before I think is demonstrated in the President's Foreign 
Intelligence Advisory Board report, and there is an 
organization chart in there which will convince you that nobody 
using that organization chart could get a handle on anything.
    We, after some false starts for a variety of reasons, came 
up with the appropriate organizational level and the right 
people, so that at least we had coherent security oversight.
    On physical security I think--of course, the bar got raised 
considerably after 9/11--that we have made substantial 
progress. Information security has been harder. We've made some 
progress. We have simplified some requirements. I think this 
security, sir, is frankly something you just keep working on. 
If you believe there is a time when you have fixed it, you will 
find you are wrong. You have to just keep working on it.
    I think we have substantially improved security. That is 
not saying that there are not still problems.
    Mr. Brooks of Alabama. Do either of the other two witnesses 
have any insight they are able to share?
    Dr. Kuckuck. I could add nothing to that.
    Mr. Aloise. I would say ineffective Federal oversight and a 
culture that initially didn't value security, those two 
combinations led to a lot of the security breaches. Many of 
them severely impacted our national security. We seem to be at 
a level now where security is at a right place as far as we can 
tell. But Linton is correct, we need to be vigilant to make 
sure those safeguards stay in place.
    Mr. Brooks of Alabama. Thank you, Mr. Chairman.
    Mr. Turner. Thank you. We appreciate that throughout all 
the testimony, and even in your discussion, Mr. Aloise, there 
is a recognition that the status quo is unacceptable, that 
there are failures in the performance of NNSA. We are grappling 
with the issue of what then is the answer. As we look to 
questions that we are going to be submitting to the record, we 
look forward to your additional information that you might 
provide us as we try to, you know, offer some solutions as to 
how that may be addressed.
    [The information referred to can be found in the Appendix 
on page 59.]
    Mr. Turner. Thank you. We will be adjourned.
    [Whereupon, at 4:09 p.m. the subcommittee was adjourned.]



=======================================================================


                            A P P E N D I X

                             June 27, 2012

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 27, 2012

=======================================================================


                    Statement of Hon. Michael Turner

            Chairman, House Subcommittee on Strategic Forces

                               Hearing on

     Creation and Implementation of the National Nuclear Security 
                             Administration

                             June 27, 2012

    Good afternoon and welcome to today's hearing on the 
``Creation and Implementation of the National Nuclear Security 
Administration (NNSA).''
    This hearing is part of the subcommittee's continuing 
oversight of governance and management issues related to NNSA 
and our nuclear security enterprise. As many of you here today 
undoubtedly know, this subcommittee has spent considerable 
effort over the past year to better understand these problems 
and determine appropriate remedies. We are gravely concerned 
about the overwhelming number of studies and reports that have 
identified the same serious problems at NNSA and the Department 
of Energy--including reports that NNSA is ``broken,'' that 
``science and engineering quality is at risk'' at the nuclear 
weapons labs, and that ``it is time to consider fundamental 
changes'' to the entire organization and construct.
    As part of the subcommittee's broader efforts, this hearing 
will take a detailed look at the past. With the help of our 
witnesses, we will explore the history that led up to the 
creation of the NNSA in 1999 and 2000, the congressional intent 
behind creating NNSA, and the early years of implementation of 
the NNSA. Ultimately, we hope that the witnesses can help us 
answer several questions that are important for the future:

    <bullet> LDid implementation of NNSA achieve the vision of 
a ``separately organized'' and ``semi-autonomous'' organization 
with significant freedom of action from the Department of 
Energy (DOE)?

    <bullet> LCan a ``semi-autonomous'' structure work?

    <bullet> LWhat lessons should we learn from the 
implementation of NNSA, and how should we apply those lessons 
as we look to address the continuing problems that sound eerily 
similar to those that NNSA was intended to fix?

    Given their deep experience from many different angles of 
this issue, our witnesses are well-equipped to help us with all 
of this. They are:

    <bullet> LAmbassador Linton F. Brooks, Senior Advisor, 
Center for Strategic and International Studies, Former 
Administrator, National Nuclear Security Administration;

    <bullet> LDr. Robert W. Kuckuck, Former Principal Deputy 
Administrator, National Nuclear Security Administration, Former 
Director, Los Alamos National Laboratory; and

    <bullet> LMr. Eugene Aloise, Director, Natural Resources 
and Environment, Government Accountability Office.

    Gentlemen, thank you for joining us today.
    Reviewing your prepared statements, as well as some 
information provided by the staff, I was struck by how, at one 
point in its early years, NNSA seemed to be headed in the right 
direction. At the senior levels within NNSA, the intentions and 
the actions seemed to be to implement the intent of the NNSA 
Act and create agile, efficient, and effective operation.
    A case in point is the February 2002 Report to Congress on 
the Organization and Operations of the NNSA. This report 
contains action plans to streamline and clarify roles and 
reporting relationships; right-size Federal staff; clarify the 
nature and operations of NNSA's semi-autonomous nature; and 
lift administrative burdens through streamlining policies, 
procedures, and staffing. In short, this appears to have been a 
real plan for creating the NNSA that was actually intended by 
the NNSA Act.
    So the question is: Where did it get off track and why? 
Because we have many, many reports by independent groups that 
it has gotten very off track. For instance, the bipartisan 2009 
Strategic Posture Commission said:

         L``Despite some success, the NNSA has failed to meet 
        the hopes of its founders. Indeed, it may have become 
        part of the problem, adopting the same micromanagement 
        and unnecessary and obtrusive oversight that it was 
        created to eliminate.''

    That same year, a bipartisan report by the Stimson Center 
said:

         L``The implementation of the NNSA Act failed to 
        achieve the intended autonomy for NNSA within the 
        Department of Energy. The Labs now must operate within 
        a complicated set of bureaucratic relationships with 
        both DOE and NNSA.''

    Looking at the history, it is apparent that the non-NNSA 
portions of DOE (in his statement, Ambassador Brooks calls it 
``Big DOE'') have fought to restrict NNSA's autonomy from the 
very beginning. First we saw President Clinton's signing 
statement and the ``dual-hatting'' of DOE officers into senior 
NNSA positions. But that particular problem was eventually 
overcome, thanks to vigorous oversight by the HASC Special 
Oversight Panel led by Rep. Thornberry and Rep. Tauscher. But 
DOE meddling remained, and appears to remain to this day.
    Ambassador Brook's prepared statement indicates that even 
if senior DOE leaders were on board with the concept of NNSA, 
many DOE staff were decidedly not. The ambassador's statement 
gives one example:

         L`` . . . the then-[DOE] General Counsel objected 
        strongly to my approach. As I understood her 
        objections, she believed that the NNSA Act provision 
        was inappropriate and that NNSA should have no 
        flexibility that was not available to any other element 
        of the Department.''

    A General Counsel has no authority to decide what law is 
inappropriate--this is merely defending bureaucratic turf. This 
is indicative of the larger problem: The DOE bureaucracy fought 
against even limited autonomy for NNSA, despite clear 
congressional intent with the NNSA Act. More recent evidence 
indicates this trend continues.
    Dr. Kuckuck's prepared statement highlights what I think is 
the key issue for any solution we pursue: How do we change an 
entrenched and deeply bureaucratic culture? Dr. Kuckuck says:

         L`` . . . change of the magnitude envisioned with the 
        creation of the NNSA was obviously a daunting challenge 
        that would involve more than just principled redesign 
        of organizational structure and procedures. It would 
        require a fundamental change in the underlying culture 
        of the entire enterprise.''

    I agree. Changing the culture will require bold action, 
followed by strong and committed leadership for years 
afterward. Both Dr. Kuckuck and Ambassador Brooks suggest that 
full autonomy is needed for NNSA. They seem to suggest--based 
on their experience as senior leaders at NNSA and in the 
nuclear security enterprise--that the semi-autonomy construct 
will not work. I hope both witnesses will comment on what 
particular experiences and evidence from the early years of 
NNSA and more recent years makes them recommend this course of 
action.
    Mr. Aloise and GAO have conducted oversight on NNSA since 
its beginning, and noted in a 2007 report that DOE and NNSA 
have struggled to determine how NNSA should operate as a 
separately organized agency. Mr. Aloise's prepared statement 
notes that NNSA has made considerable progress in some areas, 
but remains sorely deficient in others. But Mr. Aloise also 
disagrees with the testimony of our other two witnesses--as 
well as the reams of reports from independent groups--on 
whether NNSA should be made fully autonomous from DOE. I hope 
to explore that judgment during the discussion period.
    We must find a way out of this mess. Our nuclear deterrent 
requires an effective and efficient steward. In the FY13 
National Defense Authorization Act, the House has put forward 
reasonable and prudent solutions that are well founded in the 
findings of myriad experts and commissions. Now we look to 
others, including the Administration, for their own proposals. 
A letter that Chairman McKeon and I sent to President Obama 6 
weeks ago seeking his solutions remains unanswered. While we 
wait, my hope for this hearing is that by looking to the past, 
we can help find a clear way forward to the future.
    Thank you again to our witnesses for joining us today--we 
look forward to the discussion.

                   Statement of Hon. Loretta Sanchez

         Ranking Member, House Subcommittee on Strategic Forces

                               Hearing on

     Creation and Implementation of the National Nuclear Security 
                             Administration

                             June 27, 2012

    Before we turn to the topic of today's hearing, I would 
like to extend a warm welcome to Congressman Ron Barber of the 
eighth district of Arizona who has joined the House Armed 
Services Committee and the Strategic Forces Subcommittee.
    I would like to join Chairman Turner in thanking our 
witnesses, Ambassador Linton Brooks, Dr. Robert Kuckuck, and 
Mr. Aloise, for being here today.
    Chairman Turner, our Committee members, and I are committed 
to the success of NNSA, the nuclear complex, and its National 
Security mission.
    As we discuss the reasons for creating the National Nuclear 
Security Administration, its implementation and the way ahead, 
I would like to emphasize three key points.

        <bullet> LFirst, this remains a critical time for NNSA 
        and the nuclear weapon laboratories and the production 
        complex. As we examine oversight and management, our 
        priority and focus must remain a safe, secure, and 
        reliable nuclear arsenal and urgent nonproliferation 
        efforts. Having in place a cost-effective and robust 
        structure to support the cutting-edge science and 
        engineering that underpin these efforts, is paramount. 
        Improvements for more effective oversight, stronger 
        accountability measures, clearer lines of authority, 
        and setting clear requirements and guidance, remain 
        necessary. These changes require strong leadership and 
        an improved culture of excellence at NNSA. However, I 
        am concerned that efforts to push for a fully 
        independent NNSA at this time may pose an unacceptable 
        risk of detracting from the focus and important 
        missions at hand. We cannot risk NNSA losing focus from 
        life extension programs, and the construction of 
        billion-dollar facilities. We must proceed carefully 
        and deliberately in adding value to the process of 
        improving NNSA.

        <bullet> LSecond, I would also like to raise the issue 
        of cost. The Administration is investing--and the 
        Congress has supported--unprecedented levels of funding 
        for the nuclear weapons complex. The FY 2013 budget 
        request of $7.6 billion represents about a 20% increase 
        over 2010 levels, when many other programs are being 
        cut. At a time of fiscal crisis and scarce resources, 
        we must put in place robust governance and management 
        structures to avoid budget and schedule overruns. This 
        is all the more important for billion-dollar projects. 
        And we must seek opportunities for improving efficiency 
        within NNSA, DOE, and across the nuclear complex to 
        drive down costs. A November 2011 Department of Energy 
        Inspector General report on Management Challenges at 
        the Department of Energy made some initial 
        recommendations on this issue.

        <bullet> LThird, strong independent oversight, for 
        example by the Defense Nuclear Facilities Safety Board 
        (DNFSB) and the Department of Energy's Office of Health 
        Safety and Security, to preserve a safe environment for 
        our scientists and workers at the facilities, remains 
        crucial. We must have appropriate independent oversight 
        in place to avoid the kind of accidents that plagued 
        the nuclear complex in the past and for correcting 
        current safety deficiencies. I am concerned about the 
        growing tendency to cast unwarranted blame on the DNFSB 
        and other independent reviews (including those mandated 
        by Congress) that maintain high standards for safety. 
        Accidents can and do happen, as illustrated by the 
        tragic events at Fukushima and Deepwater Horizon. A 
        nuclear accident, even a minor one, would have 
        significant repercussions on the future of the nuclear 
        weapons complex. That is a consequence that we would 
        all like to avoid. Creating and maintaining a strong 
        safety culture is key to ensuring a safe, secure, and 
        reliable arsenal.

    Thank you for sharing your insights on the creation of the 
NNSA to inform our oversight. In conclusion, as we look ahead I 
look forward to hearing your thoughts on:

        1) Leffective oversight, contract structure, governance 
        and management--including transparency, accountability, 
        and clear lines of authority;

        2) Lthe need for a process that ensures safety for 
        workers and the public; and

        3) Lwhether the structure is set up to incentivize 
        savings, maximize investment in programmatic work, 
        avoid uncontrolled cost escalation and schedule delays, 
        set priorities, and enable competition.

        [GRAPHIC] [TIFF OMITTED] 75145.001
        
        [GRAPHIC] [TIFF OMITTED] 75145.002
        
        [GRAPHIC] [TIFF OMITTED] 75145.003
        
        [GRAPHIC] [TIFF OMITTED] 75145.004
        
        [GRAPHIC] [TIFF OMITTED] 75145.005
        
        [GRAPHIC] [TIFF OMITTED] 75145.006
        
        [GRAPHIC] [TIFF OMITTED] 75145.007
        
        [GRAPHIC] [TIFF OMITTED] 75145.008
        
        [GRAPHIC] [TIFF OMITTED] 75145.009
        
        [GRAPHIC] [TIFF OMITTED] 75145.010
        
        [GRAPHIC] [TIFF OMITTED] 75145.011
        
        [GRAPHIC] [TIFF OMITTED] 75145.012
        
        [GRAPHIC] [TIFF OMITTED] 75145.013
        
        [GRAPHIC] [TIFF OMITTED] 75145.014
        
        [GRAPHIC] [TIFF OMITTED] 75145.015
        
        [GRAPHIC] [TIFF OMITTED] 75145.016
        
        [GRAPHIC] [TIFF OMITTED] 75145.017
        
        [GRAPHIC] [TIFF OMITTED] 75145.018
        
        [GRAPHIC] [TIFF OMITTED] 75145.019
        
        [GRAPHIC] [TIFF OMITTED] 75145.020
        
        [GRAPHIC] [TIFF OMITTED] 75145.021
        
        [GRAPHIC] [TIFF OMITTED] 75145.022
        
        [GRAPHIC] [TIFF OMITTED] 75145.023
        
        [GRAPHIC] [TIFF OMITTED] 75145.024
        
        [GRAPHIC] [TIFF OMITTED] 75145.025
        
        [GRAPHIC] [TIFF OMITTED] 75145.026
        
        [GRAPHIC] [TIFF OMITTED] 75145.027
        
        [GRAPHIC] [TIFF OMITTED] 75145.028
        
        [GRAPHIC] [TIFF OMITTED] 75145.029
        
        [GRAPHIC] [TIFF OMITTED] 75145.030
        
        [GRAPHIC] [TIFF OMITTED] 75145.031
        
        [GRAPHIC] [TIFF OMITTED] 75145.032
        
        [GRAPHIC] [TIFF OMITTED] 75145.033
        
        [GRAPHIC] [TIFF OMITTED] 75145.034
        
        [GRAPHIC] [TIFF OMITTED] 75145.035
        
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             June 27, 2012

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Brooks. I believe I was able to present the structural problems 
during my testimony and have no examples to add. The cultural problems 
are more difficult. Most Federal civil servants, like most human 
beings, want to believe that they are making a difference. The 
Department of Energy is fortunate to have an experienced and dedicated 
workforce. It has proven difficult for some of them to accept that 
things that they have done for a lifetime they should now no longer do 
in the name of something called ``semi-autonomy.'' Many working level 
officials of the non-NNSA parts of the Department tend to believe that 
it is an error for them to no longer be involved with NNSA. This is 
true even in areas (such as five year budgeting) where NNSA was clearly 
the leader within the department. Perhaps the most striking example of 
this tendency is in the legal area. Federal lawyers quite properly 
regard their job as protecting senior officials, especially the 
Secretary. It is very difficult for them culturally to accept that 
legal organization (such as the office of NNSA's General Counsel) over 
which they have no control can be consistently relied on to provide 
appropriate legal services in areas for which they feel responsible.
    The structural problems I observed are almost certainly amenable to 
solution, although the integrated nature of the Department of Energy 
information technology is particularly challenging. The cultural 
problems, however, may not be solvable and are the strongest argument 
for greater autonomy for NNSA. [See page 6.]

    Mr. Aloise. We have not performed an organizational culture 
assessment of NNSA. However, organizational culture experts generally 
agree that an organization's beliefs and values affect the behavior of 
its members. In previous work [GAO: Organizational Culture: Techniques 
Companies Use to Perpetuate or Change Beliefs and Values, GAO/NSIAD-92-
105, (Washington, D.C.: Feb. 27, 1992).], we have found that (1) 
experts agree that an organization's decision to change its culture is 
generally triggered by a specific event or situation and is a long-term 
effort that takes at least 5 to 10 years to complete and (2) company 
officials believe that the two key techniques for a successful culture 
change are the top management's total commitment to the change and 
training that promotes and develops skills related to the company's 
desired values or beliefs. In addition, the organizations we reviewed 
indicated that effecting successful cultural change requires a 
combination of many techniques, including (1) distributing a written 
statement of values and beliefs; (2) creating a management style that 
reinforces the desired values and beliefs; (3) offering rewards, 
incentives, and promotions to encourage behavior that reinforces those 
beliefs; (4) holding company gatherings to discuss those beliefs; (5) 
developing an organizational structure that is compatible with those 
beliefs; (6) using systems, procedures, and processes to support 
organizational values; and (7) using stories, legends, myths, and 
slogans to communicate those values and beliefs. In our view, a 
dramatic organizational change will be disruptive in the short run. In 
addition, dramatic organization change that is not supported by the 
other activities listed above may not be effective in changing 
organizational culture. [See page 11.]
                                 ______
                                 
            RESPONSE TO QUESTION SUBMITTED BY MR. THORNBERRY
    Mr. Aloise. We recommended in October 2008 that if DOE's Office of 
Health, Safety, and Security (HSS) does not take appropriate action to 
meet the criteria for independent oversight as defined in our report 
[GAO, Nuclear Safety: Department of Energy Needs to Strengthen Its 
Independent Oversight of Nuclear Facilities and Operations, GAO-09-61 
(Washington, D.C. Oct. 28, 2008).], the Congress should consider the 
following:

    <bullet>  permanently establishing in law the responsibilities of 
HSS, or

    <bullet>  shifting DOE to external regulation by:

        <all>  providing the resources and authority to the Defense 
        Nuclear Facilities Safety Board to oversee all DOE nuclear 
        facilities and to enforce DOE nuclear safety rules and 
        directives, or

        <all>  providing the resources and authority to NRC to 
        externally regulate all or just newly constructed DOE nuclear 
        facilities.

    Appendix V of this report assessed the options for external 
regulation of DOE's nuclear facilities, either by the Defense Nuclear 
Facilities Safety Board or the Nuclear Regulatory Commission. As 
discussed in this appendix, shifting responsibility for external 
regulation to either of these organizations appears practical, if they 
are given the necessary authority and resources. We reported that the 
Nuclear Regulatory Commission had not expressed a view on expanding its 
oversight role beyond the DOE facilities already subject to its 
regulation. DOE and the Safety Board have taken issue with this option 
because of concerns about the transition costs versus the likely safety 
benefits of doing so. [See page 8.]


=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 27, 2012

=======================================================================


                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. 1) Ambassador Brooks and Dr. Kuckuck, does having 
detailed procedures and very prescriptive processes help or hinder 
safety? What about security? Does having detailed procedures and very 
prescriptive processes lead to improvements in safety culture or 
security culture? How does detailed, transaction-level oversight impact 
efforts to improve safety, security, and associated cultures?
    Mr. Brooks. I believe there is considerable evidence that detailed 
procedures for complex operations help improve safety. There is, 
however, no evidence that attempting to prescribe such procedures from 
headquarters is useful. Transaction level oversight risks descending 
into micromanagement and shifts the perceived responsibility from those 
conducting the procedures to those overseeing them. Thus I believe that 
for both safety and security, the appropriate function of oversight is 
to ensure that the local plant or laboratory has provided appropriate 
procedures and has a system to ensure their consistent and effective 
use.
    Mr. Turner. 2) Ambassador Brooks and Dr. Kuckuck, as mentioned in 
my prepared opening statement, NNSA's February 2002 report to Congress 
on how it would operate and be organized contains many indications that 
NNSA was headed in the right direction--that it was preparing to 
implement the intent of the NNSA Act. The report lists a series of 
actions it would take to ``lift administrative burdens through 
streamlining policies, procedures, and staffing.'' This included an 
``objective of reducing by half the administrative workload imposed by 
policies, procedures, and guidance,'' and plans to ``reengineer core 
business practices and right-size and reinvigorate federal staff.''
    <all> Do you believe implementation of this February 2002 plan was 
successful? Why or why not?
    <all> Was the objective of ``reducing by half the administrative 
workload imposed by policies, procedures, and guidance'' achieved? Why 
or why not?
    <all> Was the Federal staff ``right-sized and reinvigorated'' as 
the report indicated?
    -- Budget documents indicate that NNSA's Office of the 
Administrator started at around 1,940 employees in FY2002, was reduced 
to less than 1,700 by FY2005 through streamlining initiatives, but is 
now back at above 1,900. Why did the Federal workforce numbers bounce 
back to pre-NNSA levels, despite all of the effort at streamlining?
    <all> All of the reports we read and experts we talk to seem to say 
that the administrative bureaucracy has only gotten worse. How and 
where did we get off track?
    Mr. Brooks. I lack the detailed knowledge to comment on 
developments within NNSA since I left in 2007. I believe that during my 
tenure we made substantial progress on ``right-sizing and 
reinvigoration.'' As detailed in my prepared testimony, however, we 
were never fully successful in establishing NNSA's autonomy from the 
broader Department of Energy.
    Mr. Turner. 3) Ambassador Brooks, Dr. Kuckuck, and Mr. Aloise, 
NNSA's February 2002 report to Congress states the NNSA and the 
Secretary of Energy agreed to a streamlined independent oversight 
process for NNSA. Basically, DOE's Office of Independent Oversight and 
Performance Assurance would consolidate DOE's oversight of NNSA into a 
single office.
    <all> Did this independent DOE oversight model work? Why or why 
not?
    <all> Was this independent DOE oversight model really tried in 
earnest? Is it still in place? If it is not in place, what is DOE's 
current structural approach to oversight of NNSA?
    Mr. Brooks. The intent of the February 2002 report was to save 
staff resources by not requiring NNSA to establish its own independent 
oversight organization. In principle, this was a good idea, but in 
hindsight it has had unforeseen and unfortunate consequences. As I 
indicated in my prepared testimony, NNSA's practice of using Department 
of Energy-wide organizations (independent oversight, legal, etc.) made 
it more difficult to establish semi-autonomy and thus to reduce 
excessively prescriptive procedures. In theory, the DOE oversight 
organization could simply have used to evaluate how well NNSA policies 
and procedures were being implemented. In practice, however, the Office 
of Independent Oversight and Performance Assurance became an obstacle 
to our reducing and streamlining requirements.
    I am not able to comment on current procedures within the 
Department of Energy and recommend the committee seeks that information 
from DOE and NNSA.
    Mr. Turner. 4) Ambassador Brooks, Dr. Kuckuck, and Mr. Aloise, 
NNSA's February 2002 report to Congress indicates that NNSA was 
striving to become a true ``separately organized'' agency, and that 
``where appropriate, NNSA is seeking autonomy, but it has negotiated . 
. . the use of the DOE's staff to address NNSA needs, with the proviso 
that DOE support staff function in accordance with an agreement that 
ensures that NNSA priorities and standards are the basis of the 
service.''
    <all> Ambassador, your prepared statement says that you now 
``regret'' relying on DOE staff offices for support because it weakened 
your ability to establish autonomy--and ``establishing such autonomy 
became a major problem.''
    -- Please explain why this form of ``semi-autonomy'' didn't work.
    -- Do you believe this type of ``semi-autonomy'' can work at all, 
or is full or much stronger autonomy necessary?
    <all> Dr. Kuckuck and Mr. Aloise, do you believe this concept of 
semi-autonomy can work, or is full or significantly stronger autonomy 
needed?
    <all> Ambassador Brooks and Dr. Kuckuck, NNSA has told us that it 
is currently subject to 270 separate DOE orders, directives, and rules. 
Does this fit the definition of ``separately organized'' and ``semi-
autonomous'' as you understood it during your time in the early years 
of NNSA?
    Mr. Brooks. Semi-autonomy did not work because organizations that 
had department-wide responsibilities were unwilling (without 
substantial and continuing effort by senior NNSA officials) to accept 
the view that they need not exercise supervision over NNSA. This was a 
perfectly understandable reaction from dedicated civil servants who 
were convinced that they were adding value. Such an attitude, however, 
made it difficult to implement our vision of semi-autonomy. Although we 
did not fully realize it early in my tenure, there actually are no good 
examples of semi-autonomy within the Federal Government on which we can 
model an appropriate DOE-NNSA relationship. This leads me to conclude 
that, while good people can make any system work to some degree, the 
structural benefits of an independent NNSA are inconsistent with semi-
autonomy as it was actually implemented.
    I do not believe that simply counting the number of Department of 
Energy orders and other directives is a particularly useful measure of 
how well a ``separately organized'' or ``semi-autonomous'' organization 
is functioning. What is important is not the number of orders, but 
their content. For example, when we did the pilot program at the Kansas 
City Plant, we exempted the plant from a number of departmental 
regulations. The Inspector General objected to our including a 
departmental order that required cooperation with the Inspector General 
functions. Whether that order did or did not apply to NNSA had very 
little bearing on our functioning. The problem with the large number of 
DOE orders is not the number per se but the prescriptive detail of many 
of them.
    Mr. Turner. 5) Ambassador Brooks, your prepared statement mentions 
that ``clear lines of authority and accountability are made more 
difficult by the number of external bodies to whom the Administrator is 
in some sense accountable.'' As you know, one of the key reasons for 
the NNSA Act was to clear up confused lines of authority and 
accountability.
    <all> Did implementation of NNSA help clear this up? How?
    <all> Would you please describe all of the oversight that is 
applied to the nuclear security enterprise, for instance on safety?
    <all> Do you think all of these layers contribute to inefficiency? 
Do you think they add value, or are they duplicative and add minimal 
benefit?
    Mr. Brooks. I believe implementation of NNSA clarified lines of 
authority and accountability. While there is considerable evidence 
(including the significant Y-12 security incident that occurred after 
the date of this hearing) that there are still areas in which clear 
lines of accountability do not exist, I believe that NNSA had made 
substantial progress compared to the almost incomprehensible situation 
documented in the 1990s. That said, much of the perceived 
micromanagement and duplicative oversight was not within the control of 
the NNSA Administrator and some of it was not within the control of the 
Secretary of Energy. NNSA facilities were routinely audited by the 
Department of Energy Office of Independent Assessment, by the 
Department of Energy Inspector General, by the Government 
Accountability Office and by the Defense Nuclear Facilities Safety 
Board. These audits were in general not coordinated with one another 
and often were duplicative. Many required detailed, formal corrective 
action plans which tended to foster detailed transactional oversight.
    Routine audits by the Government Accountability Office and the 
Inspector General are simply a fact of life. I do not believe it is 
useful for the Congress to consider changing NNSA's vulnerability to 
such procedures given that both GAO and the Inspector General serve 
broader purposes. Therefore my efforts--which were not successful--were 
to reduce oversight and audits from within the Department of Energy and 
to work toward a time when I could recommend to the Congress that the 
jurisdiction of the Defense Nuclear Facilities Safety Board was no 
longer required. I still believe that to be the correct approach.
    Mr. Turner. 6) Ambassador Brooks and Dr. Kuckuck, in a recent press 
article, in the Nuclear Weapons Exchange Monitor, Ambassador Brooks is 
quoted saying ``I just think it's a misunderstanding that the line 
doesn't care about safety because you can't do your mission if you have 
safety problems . . . I think that the idea that if the NNSA 
organization doesn't have DOE's Office of Health, Safety, and Security 
looking over its shoulder [NNSA] will not pay enough attention to 
safety is wrong.'' Do you think NNSA's safety program is sufficiently 
mature without DOE staff--but still with independent oversight from the 
Defense Nuclear Facilities Safety Board and the Inspector General?
    Mr. Brooks. Yes.
    Mr. Turner. 7) Ambassador Brooks, Dr. Kuckuck, and Mr. Aloise, 
we've heard from many experts that the status quo at NNSA and DOE is 
unsustainable. We've heard ominous warnings from the National Academies 
of Science that these governance and management problems are 
threatening the quality of science and engineering at the nuclear 
weapons labs. We've heard from DOD that the costs of key nuclear 
infrastructure modernization projects are being driven up dramatically 
by excessive oversight and regulation that provide minimal safety 
benefit. And now, with this latest budget request, we're seeing key 
programs tossed overboard because we don't have enough money to pay for 
both the bureaucracy and the mission--and apparently the bureaucracy is 
a higher priority.
    <all> We saw how dysfunctional DOE was in the 1990s--that's why we 
created NNSA. What do you think the future will hold if we just 
continue under the current status quo?
    Mr. Brooks. At the time I left NNSA I believed that these problems 
would be mitigated by greater autonomy. At the same time, it is 
important to recognize that structures and procedures can facilitate 
leadership but not substitute for it. Good people can make any system 
work. The challenge for the Congress and the executive branch is to 
devise an NNSA governance structure that will make it easier to 
exercise sound leadership. The present path does not appear likely to 
eliminate the problems that you cite. But I am not as certain as I was 
when I left NNSA that greater autonomy alone is an acceptable answer. 
There are disconcerting examples, including the recent Y-12 security 
incident, that suggest internal NNSA procedures may also require 
review. It is my understanding that such detailed review is in 
progress.
    Mr. Turner. 8) Ambassador Brooks, Dr. Kuckuck, and Mr. Aloise, as 
we look to address the continuing challenges at NNSA and DOE through 
legislation and actions in the executive branch, what lessons should we 
learn from the NNSA Act and its implementation? What should be the key 
messages from the past and how might they apply to the problems at NNSA 
and DOE that all of these reports talk about today?
    Mr. Brooks. First, if there is to be change driven by legislation, 
I believe it will be important to focus on people. In particular, I 
believe significant continuity is required in the office of the 
Administrator. Further, it will be important that the Secretary and 
Deputy Secretary of Energy understand and support the intent of 
Congress.
    Second, the intent of the legislation must be clear and strong 
barriers must be established to eliminate the need for constant low-
level bureaucratic warfare to implement Congress's intent.
    While it is possible that a semi-autonomous approach can be made to 
work, it remains my view--as my testimony indicated--that full 
separation between NNSA and the Department of Energy may be required.
    Mr. Turner. 9) Ambassador Brooks and Dr. Kuckuck, based on your 
experiences in the early NNSA and since then, would you please comment 
on the reforms to NNSA contained in the House-passed FY13 defense 
authorization bill (H.R.4310)? Will it address the well-known and long-
standing problems?
    <all> Your testimony indicates you think they may not be aggressive 
enough--that full autonomy is needed for NNSA. Do the reforms in the 
bill not go far enough? Can they be effective without strong leadership 
from the executive branch? Are there gaps we are not addressing?
    Mr. Brooks. Some of the reforms in the bill attempt to constrain 
the authority of Department of Energy staff elements to interfere with 
NNSA. Unfortunately, they do so by constraining the authority of the 
Secretary of Energy. This is probably unworkable. The Secretary must 
have the authority to oversee NNSA if the intent of Congress is to keep 
NNSA within the Department, while remaining a separately organized 
entity.
    Whatever the ultimate solution is, it cannot be effective without 
strong leadership from within the executive branch. Organizational 
changes can facilitate leadership, but they cannot substitute for it.
    Mr. Turner. 10) Ambassador Brooks and Dr. Kuckuck, this 
subcommittee has reviewed the dozens of reports in the 1980s and 1990s 
that led to creation of NNSA. They all offer clear descriptions of the 
problems at DOE, including recurring security problems and gross 
mismanagement. Senior DOE leadership even embarked on several reform 
initiatives--but none were effective at fixing the organization. Why 
was senior DOE leadership unable to reform the organization? Why did it 
require Congress to step in and try to fix a problem that was so widely 
recognized?
    Mr. Brooks. I do not know why pre-NNSA reforms were not effective. 
I had no experience within the Department of Energy prior to NNSA, and 
thus have no personal basis for making judgments. I do, however, know 
some of the individuals who were involved in early reform efforts. They 
are dedicated and competent public servants. I conclude, therefore, 
that the problem probably lies in the organizational culture of the 
Department of Energy.
    Mr. Turner. 11) Ambassador Brooks and Dr. Kuckuck, in the early 
days of NNSA you were both in senior positions responsible for 
implementing the NNSA Act. With hindsight, what are the strengths and 
weaknesses of the NNSA Act?
    <all> Was the intent of the ``separately organized'' and ``semi-
autonomous'' nature of NNSA clear in the statute?
    <all> Do you believe it was clearly understood within DOE and the 
new NNSA?
    <all> Do you believe there was agreement from all stakeholders--
particularly within DOE and NNSA--regarding what these terms meant and 
intended?
    <all> What problems did you encounter in trying to stand up NNSA? 
Did you see resistance from leaders and staff at DOE? Ambassador, your 
prepared statement mentions problems with the DOE General Counsel. Can 
you elaborate? Are there other examples?
    <all> The Rudman Report, which was used as a guide for the NNSA 
Act, explained that this term, ``semi-autonomous,'' would mean that the 
agency would be ``strictly segregated from the rest of the 
department''--which would be ``accomplished by having the agency 
director report only to the Secretary.'' Has this definition of the 
term been put into practice?
    Mr. Brooks. I believe now and believed then that the intent of 
``separately organized'' and ``semi-autonomous'' was clear. I 
discovered, however, that it was not clear to all officials in the 
Department. For example, as I mentioned in my prepared testimony, 
during the first term of the Bush administration the DOE General 
Counsel took the view that in order to intelligently exercise his 
oversight, the Secretary needed essentially the same information from 
the rest of the Department to evaluate NNSA that he needed for any 
other bureau or office. Other officials also had difficulty in 
accepting that their responsibilities did not include supervising NNSA.
    I do not believe the intent of the Rudman Report that NNSA be 
strictly segregated from the rest of the Department has been 
implemented. As my testimony suggests, I have considerable doubt that 
it can be implemented under the present governance structure.
    Mr. Turner. 12) Ambassador Brooks, Dr. Kuckuck, and Mr. Aloise, the 
NNSA Act establishes a mission set for NNSA that includes broadly 
supporting nuclear security activities across the U.S. Government 
(i.e., not just for DOE). How did this ``Work For Others'' (WFO) 
function prior to NNSA? Does it work more effectively or more 
efficiently now? How do NNSA and DOE interface on WFO, or is it 
entirely in NNSA's hands?
    Mr. Brooks. I do not have a clear understanding of the functioning 
of Work for Others (WFO) prior to the establishment of NNSA. There have 
been periodic problems with managing WFO which reportedly make it 
difficult for other agencies to employ the NNSA laboratories. I do not 
believe that this is primarily a problem of the existing governance 
structure. Rather it is caused by an inappropriate level of review from 
within the existing organization.
    At the time I left NNSA Work for Others was primarily within NNSA's 
ability to control with the single exception of the area of 
intelligence where the DOE Office of Intelligence controlled the 
process.

    Mr. Turner. 13) Dr. Kuckuck, would you please provide some examples 
of how the semi-autonomous model for NNSA has not worked? What factors 
most directly lead you to recommend full autonomy for NNSA?
    Dr. Kuckuck. I believe the most substantive examples are those 
presented by Amb. Brooks as to DOE's contraints upon the 
Administrator's ability to establish a less burdensome and costly 
oversight model for the NNSA. Specific examples have also been clearly 
presented in the numerous reviews and critiques by prestigious outside 
review groups.
    Mr. Turner. 14) Ambassador Brooks and Dr. Kuckuck, does having 
detailed procedures and very prescriptive processes help or hinder 
safety? What about security? Does having detailed procedures and very 
prescriptive processes lead to improvements in safety culture or 
security culture? How does detailed, transaction-level oversight impact 
efforts to improve safety, security, and associated cultures?
    Dr. Kuckuck. The level of detailed procedures and prescriptive 
processes should vary with the specific task being performed. While 
detailed procedures such as checklists may be essential for some 
highly-complex but repetitive tasks, they can also be counterproductive 
to good safety in others. There is often a tendency for workers to 
begin to believe the paperwork ``makes them safe'' and to stop thinking 
on their own. In addition, an excess of procedures reduces efficiency 
and moral. Transaction-level oversight as opposed to oversight of 
performance against broader principles and objectives, frequently 
becomes disconnected from the mission as a whole, often tends toward 
measuring minutia, is an insult to the professional doing the job, is 
extremely costly and inefficient, and destroys morale.
    Mr. Turner. 15) Ambassador Brooks and Dr. Kuckuck, as mentioned in 
my prepared opening statement, NNSA's February 2002 report to Congress 
on how it would operate and be organized contains many indications that 
NNSA was headed in the right direction--that it was preparing to 
implement the intent of the NNSA Act. The report lists a series of 
actions it would take to ``lift administrative burdens through 
streamlining policies, procedures, and staffing.'' This included an 
``objective of reducing by half the administrative workload imposed by 
policies, procedures, and guidance,'' and plans to ``reengineer core 
business practices and right-size and reinvigorate federal staff.''
    <all> Do you believe implementation of this February 2002 plan was 
successful? Why or why not?
    <all> Was the objective of ``reducing by half the administrative 
workload imposed by policies, procedures, and guidance'' achieved? Why 
or why not?
    <all> Was the Federal staff ``right-sized and reinvigorated'' as 
the report indicated?
    -- Budget documents indicate that NNSA's Office of the 
Administrator started at around 1,940 employees in FY2002, was reduced 
to less than 1,700 by FY2005 through streamlining initiatives, but is 
now back at above 1,900. Why did the Federal workforce numbers bounce 
back to pre-NNSA levels, despite all of the effort at streamlining?
    <all> All of the reports we read and experts we talk to seem to say 
that the administrative bureaucracy has only gotten worse. How and 
where did we get off track?
    Dr. Kuckuck. I do not believe the February 2002 plan was 
implemented as designed, neither the reduced administrative workload 
nor Federal staff levels were realized. I believe the NNSA was 
constrained by bureaucratic barriers within the DOE as well as within 
NNSA itself. I was not at NNSA after 2002, so cannot comment on 
variations in the Federal workforce after then. As for ``where did we 
get off track,'' I believe the transformation of NNSA never really got 
``on track.''
    Mr. Turner. 16) Ambassador Brooks, Dr. Kuckuck, and Mr. Aloise, 
NNSA's February 2002 report to Congress states the NNSA and the 
Secretary of Energy agreed to a streamlined independent oversight 
process for NNSA. Basically, DOE's Office of Independent Oversight and 
Performance Assurance would consolidate DOE's oversight of NNSA into a 
single office.
    <all> Did this independent DOE oversight model work? Why or why 
not?
    <all> Was this independent DOE oversight model really tried in 
earnest? Is it still in place? If it is not in place, what is DOE's 
current structural approach to oversight of NNSA?
    Dr. Kuckuck. I believe the ``Independent DOE oversight'' model did 
not work. I believe that DOE blocked the NNSA from issuing it's own 
directives. I believe that senior NNSA officials certainly tried ``in 
earnest'' to succeed, but met insurmountable barriers. I am not current 
on exactly what oversight is in place now, but am of the impression is 
it essentially still DOE's oversight model.
    Mr. Turner. 17) Ambassador Brooks, Dr. Kuckuck, and Mr. Aloise, 
NNSA's February 2002 report to Congress indicates that NNSA was 
striving to become a true ``separately organized'' agency, and that 
``where appropriate, NNSA is seeking autonomy, but it has negotiated . 
. . the use of the DOE's staff to address NNSA needs, with the proviso 
that DOE support staff function in accordance with an agreement that 
ensures that NNSA priorities and standards are the basis of the 
service.''
    <all> Ambassador, your prepared statement says that you now 
``regret'' relying on DOE staff offices for support because it weakened 
your ability to establish autonomy--and ``establishing such autonomy 
became a major problem.''
    -- Please explain why this form of ``semi-autonomy'' didn't work.
    -- Do you believe this type of ``semi-autonomy'' can work at all, 
or is full or much stronger autonomy necessary?
    <all> Dr. Kuckuck and Mr. Aloise, do you believe this concept of 
semi-autonomy can work, or is full or significantly stronger autonomy 
needed?
    <all> Ambassador Brooks and Dr. Kuckuck, NNSA has told us that it 
is currently subject to 270 separate DOE orders, directives, and rules. 
Does this fit the definition of ``separately organized'' and ``semi-
autonomous'' as you understood it during your time in the early years 
of NNSA?
    Dr. Kuckuck. I cannot answer the question of whether or not ``this 
concept of semi-autonomy can work.'' I believe it is abundantly clear 
that in the NNSA-DOE context it has not worked. There are pros and cons 
to all models that have been proposed, but I personally believe that 
experience thus far would suggest it is time to try other than the 
current model. I believe that unless the NNSA Administrator has chosen 
to be subject to those 270 DOE orders, this does not constitute 
``separately organized,'' or ``semi-autonomous'' as I envisioned it in 
2000-2002.
    Mr. Turner. 18) Ambassador Brooks and Dr. Kuckuck, in a recent 
press article, in the Nuclear Weapons Exchange Monitor, Ambassador 
Brooks is quoted saying ``I just think it's a misunderstanding that the 
line doesn't care about safety because you can't do your mission if you 
have safety problems . . . I think that the idea that if the NNSA 
organization doesn't have DOE's Office of Health, Safety, and Security 
looking over its shoulder [NNSA] will not pay enough attention to 
safety is wrong.'' Do you think NNSA's safety program is sufficiently 
mature without DOE staff--but still with independent oversight from the 
Defense Nuclear Facilities Safety Board and the Inspector General?
    Dr. Kuckuck. I believe NNSA's safety program (AND SAFETY CULTURE) 
are quite mature without DOE staff. But, obviously, there still must be 
independent oversight. I do not believe that the Defense Nuclear 
Facilities Safety Board has been able to provide a properly balanced 
oversight function in this role. I am unaware of the level of safety 
expertise that resides in the office of the Inspector General. I would 
believe that the NRC or an NRC-like model might be most appropriate for 
NNSA.
    Mr. Turner. 19) Ambassador Brooks, Dr. Kuckuck, and Mr. Aloise, 
we've heard from many experts that the status quo at NNSA and DOE is 
unsustainable. We've heard ominous warnings from the National Academies 
of Science that these governance and management problems are 
threatening the quality of science and engineering at the nuclear 
weapons labs. We've heard from DOD that the costs of key nuclear 
infrastructure modernization projects are being driven up dramatically 
by excessive oversight and regulation that provide minimal safety 
benefit. And now, with this latest budget request, we're seeing key 
programs tossed overboard because we don't have enough money to pay for 
both the bureaucracy and the mission--and apparently the bureaucracy is 
a higher priority.
    <all> We saw how dysfunctional DOE was in the 1990s--that's why we 
created NNSA. What do you think the future will hold if we just 
continue under the current status quo?
    Dr. Kuckuck. I tend to agree with the warnings you are receiving 
from these prestigious outside reviewers.
    Mr. Turner. 20) Ambassador Brooks, Dr. Kuckuck, and Mr. Aloise, as 
we look to address the continuing challenges at NNSA and DOE through 
legislation and actions in the executive branch, what lessons should we 
learn from the NNSA Act and its implementation? What should be the key 
messages from the past and how might they apply to the problems at NNSA 
and DOE that all of these reports talk about today?
    Dr. Kuckuck. I suspect there are many elements that have 
contributed to the less-than-intended outcome of the NNSA Act, 
including: competing oversight jurisdictions within the Congress; lack 
of independence from the DOE; bureaucracy within the NNSA itself; too 
many Federal staff to ``make work;'' entitlement of outside oversight 
functions to become de-facto regulators without a balanced 
consideration of mission or resources.
    Mr. Turner. 21) Ambassador Brooks and Dr. Kuckuck, based on your 
experiences in the early NNSA and since then, would you please comment 
on the reforms to NNSA contained in the House-passed FY13 defense 
authorization bill (H.R.4310)? Will it address the well-known and long-
standing problems?
    <all> Your testimony indicates you think they may not be aggressive 
enough--that full autonomy is needed for NNSA. Do the reforms in the 
bill not go far enough? Can they be effective without strong leadership 
from the executive branch? Are there gaps we are not addressing?
    I believe that H.R.4310 clearly indicates Congressional intent to 
improve upon the current and failing NNSA semi-autonomous model created 
by the NNSA Act. It is a step in the right direction, but may not be 
enough--necessary, but not sufficient. For example, the bill attempts 
to limit NNSA regulations in non-nuclear health and safety to OSHA 
standards. This allows for NNSA to interpret the OSHA standard and 
issue a separate NNSA regulation. Why have NNSA regulations at all? Why 
not subject NNSA facilities to OSHA oversight and eliminate the NNSA 
``middle man''? Much of the burdensome oversight being objected to 
comes from such middlemen and their interpretations. The bill attempts 
to force the DNFSB into a more collaborative, balanced oversight model. 
Rather than try to reform the DNFSB, why not take positive steps to 
move nuclear oversight to the NRC? The bill attempts to force 
partnership and communication between the Secretary of Energy and the 
Laboratory Directors and Plant Managers. Why have this forced 
relationship, versus allowing relationships to build naturally in a 
fully independent NNSA? Why encumber the chances of success with the 
burdens of overcoming the legacy of past failures?
    Dr. Kuckuck. It is true that the bill cannot legislate leadership, 
trust, partnership and good judgment, but the bill can definitely 
legislate an environment that will attract, encourage and foster these 
qualities. It seems to me that there is a greater chance of success in 
this endeavor by starting from a clean sheet of paper than by trying to 
reform embedded bureaucracies.
    Mr. Turner. 22) Ambassador Brooks and Dr. Kuckuck, this 
subcommittee has reviewed the dozens of reports in the 1980s and 1990s 
that led to creation of NNSA. They all offer clear descriptions of the 
problems at DOE, including recurring security problems and gross 
mismanagement. Senior DOE leadership even embarked on several reform 
initiatives--but none were effective at fixing the organization. Why 
was senior DOE leadership unable to reform the organization? Why did it 
require Congress to step in and try to fix a problem that was so widely 
recognized?
    Dr. Kuckuck. I am not in a position to answer questions pertaining 
to DOE leadership in the 1980s and 1990s, but observing the barriers to 
reform that have existed in the last decade I could imagine that many 
existed then as well.
    Mr. Turner. 23) Ambassador Brooks and Dr. Kuckuck, in the early 
days of NNSA you were both in senior positions responsible for 
implementing the NNSA Act. With hindsight, what are the strengths and 
weaknesses of the NNSA Act?
    <all> Was the intent of the ``separately organized'' and ``semi-
autonomous'' nature of NNSA clear in the statute?
    <all> Do you believe it was clearly understood within DOE and the 
new NNSA?
    <all> Do you believe there was agreement from all stakeholders--
particularly within DOE and NNSA--regarding what these terms meant and 
intended?
    <all> What problems did you encounter in trying to stand up NNSA? 
Did you see resistance from leaders and staff at DOE? Ambassador, your 
prepared statement mentions problems with the DOE General Counsel. Can 
you elaborate? Are there other examples?
    <all> The Rudman Report, which was used as a guide for the NNSA 
Act, explained that this term, ``semi-autonomous,'' would mean that the 
agency would be ``strictly segregated from the rest of the 
department''--which would be ``accomplished by having the agency 
director report only to the Secretary.'' Has this definition of the 
term been put into practice?
    Dr. Kuckuck. I believe the greatest strength of the NNSA Act, at 
least in its intent, was some sort of autonomy for NNSA. Clearly, this 
``semi autonomous'' model did not work within DOE. There was not 
agreement by all parties as to what ``semi autonomous'' meant. Amb. 
Brooks has testified more about this than I am able to offer.
    Mr. Turner. 24) Ambassador Brooks, Dr. Kuckuck, and Mr. Aloise, the 
NNSA Act establishes a mission set for NNSA that includes broadly 
supporting nuclear security activities across the U.S. Government 
(i.e., not just for DOE). How did this ``Work For Others'' (WFO) 
function prior to NNSA? Does it work more effectively or more 
efficiently now? How do NNSA and DOE interface on WFO, or is it 
entirely in NNSA's hands?
    Dr. Kuckuck. I have had little direct experience with WFO and can 
not comment on this.

    Mr. Turner. 25) Mr. Aloise, do you agree with Ambassador Brooks 
when he says, with respect to today's situation at NNSA compared to 
before NNSA was created, ``Security is clearly better, safety is no 
worse, but we haven't removed the burden on the labs. Nuclear safety 
and the Defense [Nuclear Facilities Safety] Board, the relationship is 
not--was not when I was there--working well''? Has security improved? 
Has safety? Has the burden on the labs and plants been lessened? What 
is your assessment of the relationship between NNSA and the DNFSB and 
the effectiveness of the DNFSB?
    Mr. Aloise. As we stated in our June 2012 testimony, NNSA has 
established an effective headquarters security organization, and this 
organization has made significant progress in resolving many of the 
security weaknesses we had identified. [GAO, Modernizing the Nuclear 
Security Enterprise: Observations on the Organization and Management of 
the National Nuclear Security Administration, GAO-12-867T, (Washington, 
D.C.: June 27, 2012).] However, in our view, the recent serious 
security incident at the Y-12 site demonstrates that NNSA faces 
challenges in sustaining security improvements.
    Our work has also raised questions about the independence of DOE's 
oversight of safety. Furthermore, the results of DOE's recent safety 
reform are unclear because DOE did not determine if the original 
directives were burdensome, and the reform did not fully address safety 
concerns we and others have identified. [GAO, Nuclear Safety: 
Department of Energy Needs to Strengthen Its Independent Oversight of 
Nuclear Facilities and Operations, GAO-09-61 (Washington, D.C.: Oct. 
23, 2008) and Nuclear Safety: DOE Needs to Determine the Costs and 
Benefits of Its Safety Reform Effort, GAO-12-347 (Washington, D.C.: 
Apr. 20, 2012).] We have not assessed the regulatory burden on the labs 
and plants.
    We also have not formally assessed the relationship between NNSA 
and the Defense Nuclear Facilities Safety Board, nor the board's 
effectiveness. We stated that DOE must decide how to respond to the 
board recommendations and, to date, the agency has generally accepted 
these recommendations.
    Mr. Turner. 26) Mr. Aloise, in their prepared statements, 
Ambassador Brooks and Dr. Kuckuck recommend full autonomy for NNSA. We 
also have many, many reports by independent, bipartisan commissions and 
nonpartisan study groups that recommend the same. But you advocate 
against ``dramatic changes.'' Why do you disagree with all of these 
other experts?
    Mr. Aloise. As we said in our June 2012 testimony, we do not 
believe that dramatic changes are warranted because we are uncertain 
whether such significant organizational changes to increase NNSA's 
independence would produce the desired effect. [GAO-12-867T] In our 
view, few, if any, of NNSA's problems in the areas of safety, security, 
and project management stem from the organizational relationship 
between NNSA and DOE. A dramatic organizational change, such as making 
NNSA an independent agency, may be disruptive. Currently, DOE provides 
NNSA with a large number of services, such as personnel and 
headquarters building security, office space, payroll, and information 
technology. NNSA would have to devote substantially more effort to 
create and then maintain these overhead functions.
    Mr. Turner. 27) Ambassador Brooks, Dr. Kuckuck, and Mr. Aloise, 
NNSA's February 2002 report to Congress states the NNSA and the 
Secretary of Energy agreed to a streamlined independent oversight 
process for NNSA. Basically, DOE's Office of Independent Oversight and 
Performance Assurance would consolidate DOE's oversight of NNSA into a 
single office.
    <all> Did this independent DOE oversight model work? Why or why 
not?
    <all> Was this independent DOE oversight model really tried in 
earnest? Is it still in place? If it is not in place, what is DOE's 
current structural approach to oversight of NNSA?
    Mr. Aloise. Without performing additional audit work, we cannot 
determine if the oversight model discussed in the 2002 report was fully 
implemented. The Secretary of Energy created the Office of Health, 
Safety, and Security (HSS) in October 2006, incorporating most of the 
responsibilities from the former Office of Environment, Safety, and 
Health and the Office of Safety and Security Performance Assurance. HSS 
is the only office within DOE that oversees these programs without 
influence from the program offices, thus avoiding the potential 
conflict of interest inherent with program office oversight and helping 
to ensure public confidence in the Department's ability to self-
regulate nuclear safety and security. As we reported in October 2008, 
HSS has fallen short in providing effective independent oversight of 
nuclear safety. [GAO-09-61.] For example, the office's ability to 
function independently was limited because it has no role in reviewing 
the technical analysis that helps ensure safe design and operation of 
nuclear facilities. We recommended that if DOE does not take 
appropriate action to meet these criteria for independent oversight, 
then the Congress should consider the following:
    <bullet>  permanently establishing in law the responsibilities of 
HSS, or
    <bullet>  shifting DOE to external regulation by:
        <all> providing the resources and authority to the Defense 
        Nuclear Facilities Safety Board to oversee all DOE nuclear 
        facilities and to enforce DOE nuclear safety rules and 
        directives, or
        <all> providing the resources and authority to the Nuclear 
        Regulatory Commission to externally regulate all or just newly 
        constructed DOE nuclear facilities.
    DOE and HSS took actions in response to our report's 
recommendations, including placing an emphasis on assessing the design 
of new nuclear facilities before they are constructed and establishing 
site leads within HSS responsible for each of DOE's sites. Despite 
these actions to strengthen independent oversight of nuclear safety, we 
reported in April 2012 that some of these actions may undermine the 
safety culture at DOE nuclear facilities and may weaken HSS oversight 
responsibilities. [GAO-12-347.] For example, DOE's reform effort did 
not fully address safety concerns we and others have identified in 
three key areas: (1) quality assurance, (2) safety culture, and (3) 
Federal oversight. Regarding quality assurance, DOE strengthened its 
quality assurance directive by clarifying that contractors must follow 
specific industry quality assurance standards, but quality assurance 
problems persist. For example, DOE proposed a nearly $250,000 fine 
against a contractor in July 2011 after identifying quality assurance 
problems in an incident where a worker punctured his hand with a sharp 
object contaminated with plutonium. With regard to safety culture, DOE 
revised its Integrated Safety Management directives to attempt to 
strengthen the safety culture at its sites, but DOE removed 
requirements for contractors to follow the directives because 
contractors already had to comply with safety management requirements 
in Federal regulation. Defense Nuclear Facilities Safety Board 
officials raised concerns that the requirements in Federal regulation 
are less detailed and, as a result, contractors may not implement 
safety practices as rigorously as if they were subject to the more 
specific requirements in DOE's directives. Finally, regarding Federal 
oversight, DOE revised its approach to place greater emphasis on having 
its independent oversight staff review safety design documents before 
facilities are constructed, rather than after they are built. Other 
changes, however, such as requiring oversight staff to coordinate their 
assessment activities with DOE site office and contractor staff, raise 
concerns about the oversight staff's ability to provide a critical 
review of safety at DOE's sites that is independent from DOE site 
office and contractor staff.
    Mr. Turner. 28) Ambassador Brooks, Dr. Kuckuck, and Mr. Aloise, 
NNSA's February 2002 report to Congress indicates that NNSA was 
striving to become a true ``separately organized'' agency, and that 
``where appropriate, NNSA is seeking autonomy, but it has negotiated . 
. . the use of the DOE's staff to address NNSA needs, with the proviso 
that DOE support staff function in accordance with an agreement that 
ensures that NNSA priorities and standards are the basis of the 
service.''
    <all> Ambassador, your prepared statement says that you now 
``regret'' relying on DOE staff offices for support because it weakened 
your ability to establish autonomy--and ``establishing such autonomy 
became a major problem.''
    -- Please explain why this form of ``semi-autonomy'' didn't work.
    -- Do you believe this type of ``semi-autonomy'' can work at all, 
or is full or much stronger autonomy necessary?
    <all> Dr. Kuckuck and Mr. Aloise, do you believe this concept of 
semi-autonomy can work, or is full or significantly stronger autonomy 
needed?
    <all> Ambassador Brooks and Dr. Kuckuck, NNSA has told us that it 
is currently subject to 270 separate DOE orders, directives, and rules. 
Does this fit the definition of ``separately organized'' and ``semi-
autonomous'' as you understood it during your time in the early years 
of NNSA?
    Mr. Aloise. In 2007, we examined the issues that hindered NNSA from 
functioning as a separately organized agency within DOE. [GAO, National 
Nuclear Security Administration: Additional Actions Needed to Improve 
Management of the Nation's Nuclear Programs, GAO-07-36, (Washington, 
D.C.: Jan. 19, 2007).] At the time of our 2007 review, we identified 
several factors contributing to NNSA's lack of autonomy. First, DOE and 
NNSA did not have a useful model to follow for establishing a 
separately organized agency in DOE. Second, the January 2000 NNSA 
implementation plan, required by the NNSA Act, did not define how NNSA 
would operate as a separately organized agency within DOE. As a result, 
although some NNSA programs had set up procedures for interacting with 
DOE, other programs had not, resulting in organizational conflict. Even 
where formal procedures were developed, interpersonal disagreements had 
hindered effective cooperation.
    We recommended that, to ensure that NNSA functions as a separately 
organized agency, the Secretary of Energy and the Administrator, NNSA, 
should clearly define NNSA's status as a separately organized agency 
within the Department. In his 31 USC Section 720 response to our 
report, the Deputy Secretary of Energy stated that he did not concur 
with this recommendation. He stated that elements of the Department and 
the NNSA had executed memorandums of understanding specifying how 
certain departmentwide functions would be performed while respecting 
the statutory insulation of NNSA personnel. He also stated that the 
Department would consider issuing circumstance-specific guidance where 
required to correct misperceptions about the effect of the NNSA's act 
limitations. Since then, we have identified instances that indicate the 
DOE-NNSA relationship has become less clear. For example, DOE recently 
announced that DOE's Environmental Management program will begin to 
report to the NNSA Administrator, who simultaneously is an Under 
Secretary for Energy. As a result, we have left this recommendation 
open and still believe that further clarification of the NNSA-DOE 
relationship is needed.
    Mr. Turner. 29) Ambassador Brooks, Dr. Kuckuck, and Mr. Aloise, 
we've heard from many experts that the status quo at NNSA and DOE is 
unsustainable. We've heard ominous warnings from the National Academies 
of Science that these governance and management problems are 
threatening the quality of science and engineering at the nuclear 
weapons labs. We've heard from DOD that the costs of key nuclear 
infrastructure modernization projects are being driven up dramatically 
by excessive oversight and regulation that provide minimal safety 
benefit. And now, with this latest budget request, we're seeing key 
programs tossed overboard because we don't have enough money to pay for 
both the bureaucracy and the mission--and apparently the bureaucracy is 
a higher priority.
    <all> We saw how dysfunctional DOE was in the 1990s--that's why we 
created NNSA. What do you think the future will hold if we just 
continue under the current status quo?
    Mr. Aloise. GAO agrees that the status quo is unacceptable. At the 
same time, we believe that the current situation can be improved 
without separating NNSA completely from DOE. In our view, the problems 
we continue to identify in the nuclear security enterprise are not 
caused by excessive oversight but instead result from ineffective 
oversight and poor contractor management. We believe that NNSA has made 
progress in improving its management practices, and we will continue to 
monitor NNSA's efforts to improve performance.
    Mr. Turner. 30) Ambassador Brooks, Dr. Kuckuck, and Mr. Aloise, as 
we look to address the continuing challenges at NNSA and DOE through 
legislation and actions in the executive branch, what lessons should we 
learn from the NNSA Act and its implementation? What should be the key 
messages from the past and how might they apply to the problems at NNSA 
and DOE that all of these reports talk about today?
    Mr. Aloise. In our view, a retrospective ``lessons-learned'' 
evaluation of the creation of and implementation of NNSA would be 
valuable, but we have not conducted audit work that is sufficient to 
answer this question.
    Mr. Turner. 31) Mr. Aloise, a series of GAO reports in the 1990s 
were highly critical of DOE's management of the nuclear weapons 
complex--particularly in the areas of security, contract management, 
and clarity in roles, responsibilities, and authorities. For instance, 
in 1993 GAO said ``DOE has significant management problems, as reported 
by many oversight groups and acknowledged by agency leadership,'' and 
``management of the nuclear weapons complex and the national laboratory 
system . . . [is] in disarray.'' The reports contributed to the 
momentum that ultimately resulted in creation of the NNSA in 2000.
    <all> Was it within DOE's authority to fix these problems? If so, 
why didn't it?
    <all> Why did it require Congress to step in and fix a problem that 
was so widely recognized?
    Mr. Aloise. DOE and NNSA and their predecessor organizations 
generally have the authority to address the issues that our reports 
identified over the years. We have not comprehensively assessed why 
these agencies have not always done so. It is within Congress created 
NNSA to address management problems, which included serious security 
incidents involving espionage and the potential compromise of highly 
classified nuclear data. Similarly, in the late 1980s, Congress 
established the Defense Nuclear Facilities Safety Board in response to 
long-standing safety concerns at DOE's sites.
    Mr. Turner. 32) Mr. Aloise, in 1998, one year before the NNSA Act 
was signed into law, GAO analyzed DOE's progress in addressing the 
dozens of recommendations made by various advisory groups to improve 
and streamline management of DOE's national laboratories. After 
analyzing the actions DOE told GAO it was pursuing to implement these 
recommendations, GAO said that, ``Most of the actions DOE reported to 
us are process oriented, incomplete, or only marginally related to past 
recommendations for change. For example, creating new task forces and 
strengthening old ones may be good for defining problems, but these 
measures cannot force decisions or affect change.'' Generally, how do 
we get an organization to move from these sorts of fuzzy measures and 
start taking real, active steps to force change?
    Mr. Aloise. Generally speaking, cultural change is needed. We have 
not performed an organizational culture assessment of NNSA. However, 
organizational culture experts generally agree that an organization's 
beliefs and values affect the behavior of its members. In previous 
work, we found that (1) experts agree that an organization's decision 
to change its culture is generally triggered by a specific event or 
situation and is a long-term effort that takes at least 5 to 10 years 
to complete and (2) some corporate officials believe that the two key 
techniques for a successful culture change are the top management's 
total commitment to the change and training that promotes and develops 
skills related to the company's desired values or beliefs. [GAO: 
Organizational Culture: Techniques Companies Use to Perpetuate or 
Change Beliefs and Values, GAO/NSIAD-92-105, (Washington, D.C.: Feb. 
27, 1992).]
    Mr. Turner. 33) Mr. Aloise, in its 2007 report, GAO said 
``management problems continue, in part, because NNSA and DOE have not 
fully agreed on how NNSA should function within the department as a 
separately organized agency. This lack of agreement has resulted in 
organizational conflicts that have inhibited effective operations.''
    <all> What were some of the organizational conflicts? How did they 
inhibit effective operations?
    <all> What evidence led GAO to make this finding? What did GAO 
suggest be done to resolve it?
    <all> Has this problem been resolved? Do you believe NNSA and DOE 
have agreed upon--and implemented--a coherent and rational management 
structure for how NNSA should function within DOE as a ``separately 
organized'' agency, as required by the NNSA Act?
    <all> The Rudman Report, which was used as a guide for the NNSA 
Act, explained that this term, ``semi-autonomous,'' would mean that the 
agency would be ``strictly segregated from the rest of the 
department''--which would be ``accomplished by having the agency 
director report only to the Secretary.'' Has this definition of the 
term been put into practice?
    Mr. Aloise. Regarding organizational conflict, our January 2007 
report provides detail on the conflict between DOE and NNSA over the 
organization and conduct of counterintelligence. [GAO-07-36, pp. 39-
44.] More specifically, we found a lack of formal agreement between DOE 
and NNSA in a number of key areas--budgeting, procurement, information 
technology, management and administration, and safeguards and 
security--which resulted in organizational conflicts that inhibited 
effective operations. Even where formal procedures were developed, 
interpersonal disagreements hindered effective cooperation. For 
example, our report described the conflict between NNSA and DOE 
counterintelligence officials who disagreed over (1) the scope and 
direction of the counterintelligence program, (2) their ability to 
jointly direct staff in the headquarters counterintelligence program 
offices, (3) the allocation of counterintelligence resources, (4) 
counterintelligence policy making, and (5) their roles and 
responsibilities in handling specific counterintelligence matters. 
Subsequently, Congress amended the NNSA Act to consolidate DOE's and 
NNSA's counterintelligence programs under DOE.
    In terms of evidence, we reviewed the NNSA Act as well as two House 
of Representatives reports in 2000 on the act's implementation. Because 
the establishment of NNSA as a separately organized agency in DOE was a 
key provision of the NNSA Act, we met with officials from NNSA 
headquarters; the NNSA Service Center; the NNSA site offices; and DOE 
offices where NNSA and DOE need to interact, including DOE's Office of 
Intelligence and Counterintelligence (formerly the Office of 
Counterintelligence); Chief Financial Officer; Chief Information 
Officer; General Counsel; and Human Capital Management. To understand 
how NNSA and DOE were intended to interact, we interviewed officials 
and reviewed documents, such as DOE's January 2000 implementation plan 
for NNSA. We also interviewed officials with the Department of 
Commerce's National Oceanic and Atmospheric Administration, the Defense 
Advanced Research Projects Agency, the Defense Threat Reduction Agency, 
and the Department of Transportation's Federal Aviation Administration 
to obtain their views on the reporting relationships that need to be in 
place for an entity designated as a ``separately organized agency'' to 
succeed. We contacted the first two agencies cited because they were 
identified in the Defense Science Board's June 1999 report as good 
models of a separately organized agency. We contacted the latter two 
agencies cited after consultation with staff in your offices. We also 
interviewed former NNSA and DOE officials, including the first and 
second Administrators and the Deputy Secretary of Energy, who helped 
establish NNSA, to get their perspective on the difficulties involved 
in creating a separately organized agency within a department.
    In regard to semi-autonomy, the Secretary of Energy disagreed with 
our recommendation that, to ensure that NNSA functions as a separately 
organized agency, the Secretary of Energy and the Administrator, NNSA, 
should clearly define NNSA's status as a separately organized agency 
within the Department. In his 31 USC Section 720 response to our 
report, the Deputy Secretary of Energy stated that he did not concur 
with this recommendation. He stated that elements of the Department and 
NNSA had executed memorandums of understanding specifying how certain 
departmentwide functions would be performed while respecting the 
statutory insulation of NNSA personnel. He also stated that the 
Department will consider issuing circumstance-specific guidance where 
required to correct misperceptions about the effect of the NNSA Act's 
limitations. Since we received the response, there have been instances 
where the DOE/NNSA relationship has become less clear. For example, DOE 
recently announced that DOE's Environmental Management program will 
begin to report to the NNSA Administrator, who simultaneously is an 
Under Secretary for Energy. As a result, we have left this 
recommendation open and still believe that further clarification of the 
NNSA-DOE relationship is needed.
    Mr. Turner. 34) Mr. Aloise, GAO had noted long before NNSA was 
established that DOE program managers and Federal employees did not 
have the technical knowledge to effectively oversee the complex 
programs of the nuclear security labs. Did the NNSA Act address this 
concern effectively?
    <all> Ambassador Brooks and Dr. Kuckuck, do you agree this is or 
was a problem? Did the NNSA Act help attract top-quality leaders and 
managers to the Federal side?
    Mr. Aloise. Yes, we believe the NNSA Act addressed this concern. As 
we reported in April 2012, through the NNSA Act and other actions, DOE 
and NNSA sought, and were granted, authorities by Congress to offer 
higher pay to staff primarily in certain engineering and science 
fields. [GAO, Modernizing the Nuclear Security Enterprise: Strategies 
and Challenges in Sustaining Critical Skills in Federal and Contractor 
Workforces, GAO-12-468 (Washington, D.C.: Apr. 26, 2012).] 
Specifically, to help NNSA retain more experienced competitive service 
employees with critical skills--that is, employees in regular civil 
service positions--Congress granted exceptions to normal hiring 
regulations, including salary caps, under three excepted service 
authorities. First, under the Department of Energy Organization Act the 
Secretary of Energy is granted special excepted service hiring 
authorities to hire up to 200 highly skilled scientific, engineering, 
professional, and administrative individuals to upgrade the 
Department's technical and professional capabilities. NNSA can use this 
authority in some cases to hire senior-level employees from outside the 
Government or difficult-to-hire administrative staff. According to NNSA 
officials, the agency currently employs about 50 such individuals. 
Second, under the National Defense Authorization Act, the Secretary of 
Energy is also granted special excepted service hiring authorities to 
hire up to 200 highly skilled individuals--typically scientists, 
technicians and engineers with skills related to and necessary for the 
operation of nuclear facilities. According to NNSA officials, the 
agency currently employs about 100 such individuals. Third, under the 
National Nuclear Security Administration Act, NNSA may hire up to 300 
highly qualified scientists, engineers, and other technically skilled 
workers needed to support the missions of NNSA under similar excepted 
service hiring authorities. According to NNSA officials, NNSA has used 
this authority to employ about 280 highly skilled individuals. NNSA 
officials told us that all of these flexibilities are useful and help 
NNSA compete with the Nuclear Regulatory Commission and national 
laboratories.
    While DOE and NNSA have used these authorities and we have found 
performance improvements, significant deficiencies remain. We have 
attributed these ongoing deficiencies to, among other things, 
inadequate oversight and poor contractor management. Some of these 
deficiencies may also be attributed to not having enough technically 
skilled Federal officials, but we have not conducted a formal 
evaluation of the extent to which DOE and NNSA employees possess 
adequate technical knowledge.
    Mr. Turner. 35) Ambassador Brooks, Dr. Kuckuck, and Mr. Aloise, the 
NNSA Act establishes a mission set for NNSA that includes broadly 
supporting nuclear security activities across the U.S. Government 
(i.e., not just for DOE). How did this ``Work For Others'' (WFO) 
function prior to NNSA? Does it work more effectively or more 
efficiently now? How do NNSA and DOE interface on WFO, or is it 
entirely in NNSA's hands?
    Mr. Aloise. We are currently starting a review of the work for 
others (WFO) program in response to a request from the House Energy and 
Commerce Committee and plan to complete this work in 2013.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ
    Ms. Sanchez. 36) Do you think that it would have been a better 
decision to place NNSA nuclear facilities under Nuclear Regulatory 
Commission regulation? Why or why not?
    Mr. Brooks. I believe that such a step should be considered but 
that the ramifications need careful study. That is why the paper I 
prepared for the Strategic Posture Commission advocated a three year 
transition. Experience in the United Kingdom (which I acknowledge has a 
different regulatory culture) has shown a civil regulator can be 
effective in regulating military facilities. I believe the existing 
Defense Nuclear Facilities Safety Board is inherently subject to 
mission and requirements creep. I note that the MOX Fuel Fabrication 
Facility now under construction is regulated by the Nuclear Regulatory 
Commission (NRC). While this facility has had significant problems 
during construction, I am unaware of any evidence that NRC regulation 
has been the cause.
    Ms. Sanchez. 37) Some have asserted that NNSA and its contractors 
have reached a mature and high level of safety performance. However, 
just in the past year, NNSA site managers have needed to issue a number 
of letters to their contractors to correct significant safety 
deficiencies.
    Examples include:
        a.   Letter from the LANL Manager to LANS dated September 16, 
        2011, regarding the safety of operations at LANL
        b.   Letter from the Pantex Manager to B&W Pantex dated 
        December 2, 2011, regarding the quality and safety of work at 
        Pantex
        c.   Letter from the Pantex Manager to B&W Pantex dated May 29, 
        2012, regarding deficiencies in safety-related fire suppression 
        systems
        d.   Letter from the Y-12 Manager to B&W Y-12 dated January 26, 
        2012, regarding safety risks from hazardous energy sources
        e.   Letter from the Y-12 Manager to B&W Y-12 dated May 21, 
        2012, regarding deficiencies in isolating hazardous energy 
        sources (the lockout/tagout process)
    So, given the number and significance of ongoing safety 
deficiencies noted in these letters, do you believe that NNSA and its 
contractors have reached a mature, conservative level of safety 
performance with regard to complex, nuclear operations, maintenance and 
design/construction of new facilities such that they no longer need the 
oversight/regulation functions currently performed by DOE? If so, what 
data or metrics are you aware of that support your position?
    Mr. Brooks. I am not able to comment on the details of current 
actions within NNSA. In my experience there will always be safety 
problems and thus there will always be in need for oversight. The 
examples you cite appear to me to be cases where NNSA was exercising 
that oversight. It is not clear why duplication of oversight by 
Departmental elements other than NNSA would make the situation better.
    Ms. Sanchez. 38) Mr. Aloise noted in his testimony that 
``Significant improvement is still needed especially in NNSA's 
management of its major projects and contracts.''
    Should contractors subcontract major construction projects or 
should NNSA contract and manage these directly? As an example, NNSA in 
recent years had a pilot program consisting of NNSA contracting 
directly for the repair of roves across the nuclear complex which was a 
successful effort but was discontinued.
    Mr. Brooks. The example you cite for repair of roofs was conducted 
under a ``get well'' program to compensate for neglected maintenance 
during the 1990s. NNSA achieved substantial savings and efficiencies by 
centrally managing this essentially similar work that was conducted at 
multiple sites. While I am proud of this effort, I do not believe it 
has a direct bearing on the question of major construction projects at 
a single site.
    I do not regard myself as an expert in construction management. 
Nonetheless, the number of problems that have occurred with allowing 
major construction projects to be managed by the operating contractors 
at plants and laboratories is disturbing. I believe that the skills to 
operate a national laboratory or production plant and the skills to 
oversee a construction project are not the same. Thus I believe it may 
be useful for NNSA to consider contracting separately for construction 
of major facilities. I do not, however, believe that this is an 
appropriate subject for legislation since NNSA facilities tend to be 
unique and therefore the circumstances of their construction are unique 
as well.
    Ms. Sanchez. 39) What is the role for independent safety oversight? 
What is the appropriate risk level for hazardous and nuclear 
operations?
    Mr. Brooks. The role of independent safety oversight of hazardous 
and nuclear operations is to protect the public and the workers 
involved from harm. Independent safety oversight can do this only when 
it is verifying that operations are being conducted safely but is not 
seeking to remove the basic responsibility for their actions from those 
performing the operations.
    The changes in oversight that I recommended in my testimony and 
that I sought to implement when I was NNSA Administrator were not 
intended to eliminate oversight but to make it more efficient. In 
particular, I believe that multiple levels of oversight, not all of 
which are responsive to line management are less likely to achieve the 
safe operations that must be our constant goal.
    Ms. Sanchez. 40) Who should balance risk and mission? Should it be 
NNSA or the labs?
    Mr. Brooks. Both have an important role. The facilities within 
NNSA's National Security Enterprise are owned by the Government and 
thus the ultimate responsibility for balancing risk and mission must 
reside with Federal officials. At the same time, the technical 
knowledge necessary to make sound decisions is usually found in the 
organizations actually running these facilities. This leads to the 
notion that Federal officials should oversee the balancing of risk and 
mission with heavy input from the laboratories and plants.
    Ms. Sanchez. 41) Do you believe it's prudent to remove independent 
oversight from either NNSA or its contractors?
    Mr. Brooks. No. That is why my efforts as Administrator were 
directed not at limiting independent oversight but at making it more 
effective and less burdensome.
    Ms. Sanchez. 42) Should the NNSA Administrator, as is the case in 
Naval Reactors and as is the case for the Ministry of Defence in the 
UK, have the authority to lose confidence in any contractor employee 
from the director to lower levels, to increase accountability from the 
laboratories?
    Mr. Brooks. Yes and I believe existing contracts provide that 
authority although its very existence usually makes it unnecessary to 
employ.
    Ms. Sanchez. 43) Can you comment on the increase in fees post-
privatization of the labs? With such a disparity in fees paid to the 
labs, with Sandia National Laboratory receiving a third of the fee that 
LANL and LLNL receive, do you think the mission or performance change 
depending on the fee level?
    Mr. Brooks. First, I should note that Sandia National Laboratory 
has always been operated by a for-profit entity. The increased fees we 
offered in connection with the competition to manage the Los Alamos 
National Laboratory were intended to attract operating partners with 
experience in industrial management of complex high hazard facilities. 
We hoped that the increased fee would be balanced by greater efficiency 
and the elimination of costly problems, thus resulting in a net long 
term savings to the Government. From recent discussions, I believe we 
are beginning to see such a result, although it has taken us 
substantially longer than we hoped or expected. When the Congress 
directed that NNSA compete the operating contract for the Lawrence 
Livermore National Laboratory, we chose a similar approach for 
consistency.
    All three NNSA national laboratories have always been headed by 
experienced scientists, usually with long careers at those 
laboratories. I do not believe that the attitude of such leaders toward 
mission and performance is dependent on the size and structure of the 
annual fee. My observations during my tenure have convinced me that 
what motivates laboratory directors is a sense of mission and the 
professional reputation of their laboratories. Thus, the increased fees 
should properly be seen as a tool induce the industrial partners to 
provide skill sets to assist the laboratory director that would not 
otherwise be available. This was our philosophy during both the Los 
Alamos and Livermore competitions. As noted above, we are only now 
beginning to see indications that it was correct.
    Ms. Sanchez. 44) How do we instill a culture of trust and expertise 
going forward?
    Mr. Brooks. The most important factor in instilling such a culture 
is leadership by laboratory directors, plant managers, and Federal 
officials. Congress can facilitate such a leadership by mandating an 
organizational structure that has clear lines of responsibility, 
authority, and accountability. It can also help by avoiding the 
tendency to call for more detailed transactional level supervision when 
problems do occur.
    Ms. Sanchez. 45) How do you improve lines of authority to avoid 
conflicting directives?
    Mr. Brooks. I know of no way to do this except by mandating a 
single chain of command and reducing the ability of organizations not 
responsible to the Administrator to issue directives. I recognize this 
places a huge responsibility on the Administrator.
    Ms. Sanchez. 46) There have been a number of changes in the past 
year, including DOE streamlining duplicative regulations and NNSA 
moving the site manager reporting authority to the office of the 
Administrator. Can you share your insights and comment on these 
management and governance changes?
    Mr. Brooks. I need to stress that I have only limited knowledge of 
today's detailed procedures within the Department of Energy. Based on 
my understanding, both of these changes are for the better. They are 
almost certainly not, however, sufficient. Eliminating duplicative 
regulations (and even more important, conflicting regulations) is 
important but ultimately it is the content of the remaining regulations 
and the manner of their implementation that matters.
    I established what I called the ``strong site manager'' model where 
the site managers reported directly to the office of the Administrator. 
I was disappointed when the Department directed me to alter these 
reporting relationships. I am therefore obviously pleased to see that 
they are being reestablished. At the same time, they will only improve 
management if the Site Manager is once again the route into the plants 
and laboratories for all operational direction. The key is that NNSA 
must speak to its contractor partners with one voice.
    Ms. Sanchez. 47) What mechanisms would you recommend to drive down 
costs and ensure efficiencies?
    Mr. Brooks. I do not believe there is a single simple solution to 
this problem. Further, it is important to recognize that NNSA 
facilities and programs are often complex and one-of-a-kind. In such 
programs, it is inherently difficult to manage costs. The two most 
important variables appear to me to be strong, well-trained and well-
qualified managers and predictable funding. The first is fundamentally 
a responsibility of the Executive branch, while the second is a shared 
responsibility between the Executive and Congress.
    Ms. Sanchez. 48) There are efforts, including in the House NDAA to 
reduce the number of NNSA FTEs as progress is made to streamline 
management. Could you comment on the risk and benefits of reducing the 
number of FTEs at NNSA. If such reductions occur, should we see a 
proportional number of efficiencies at labs and cost savings at the 
labs?
    Mr. Brooks. In general I find reducing FTEs in anticipation of 
streamlined management to be a blunt instrument of questionable 
utility. There is no assurance that the right billets will be 
eliminated. I do not believe it is possible to predict in advance 
whether or not the mere fact of an FTE reduction will lead to 
laboratory efficiencies.
    Ms. Sanchez. 49) Do you believe that NNSA and their contractors can 
accomplish required levels of oversight/self-regulation for complex 
high-hazard nuclear operations through a system of performance-based 
self-assessments by the contractor and NNSA with no transactional 
oversight? If you believe performance-based oversight should be 
employed, what level of accidents, if any, do you believe would require 
a reinstitution of transactional oversight for complex high-hazard 
nuclear operations?
    Mr. Brooks. I do not believe that the Federal Government can simply 
take a hands-off approach and depend entirely on contractor self-
assessment. At the same time, I believe that transactional oversight is 
exceptionally likely to lead to micromanagement and to shift the 
presumed responsibility from the contractors. Thus I believe in a 
performance-based approach such as that I was trying to implement 
during my tenure.
    I do not believe that one can answer in the abstract questions 
about response to accidents. The goal is not to have such accidents in 
the first place. The issue for the Congress and NNSA is what procedures 
are most likely to lead to this result.
    Ms. Sanchez. 50) What challenges remain to improve accountability 
and cost effectiveness?
    Mr. Brooks. As I have noted elsewhere, I lack detailed knowledge of 
the current status of NNSA and thus I believe it is inappropriate for 
me to attempt to judge how far they have come or what the most 
important remaining challenges are.
    Ms. Sanchez. 51) In 2011, the Department of Energy Inspector 
General issued a report entitled ``Management Challenges at the 
Department of Energy'' which recommended eliminated duplicative 
functions at the NNSA, including General Counsel, Chief Information 
Officer, Human Resources, Public Affairs. What are the benefits and 
risks of this approach? What is the cost of having separate functions?
    Mr. Brooks. I believe it is more correct to say that the Inspector 
General recommended studying such a consolidation in order to meet the 
anticipated funding challenges of the coming years. The Inspector 
General's report noted the view (which it neither endorsed nor refuted) 
that the separate functions made NNSA more efficient.
    The principal benefit of the existing functions is to enhance the 
ability of NNSA to function as a separately organized entity, as the 
Congress directed. As I indicated in my testimony, the more NNSA is 
required to draw on support from the larger Department, the less clear 
its organizational independence becomes. Thus the specific changes are 
surrogates for the broad question of whether a separately organized 
NNSA (either inside or outside of the Department of Energy) remains in 
the national interest. I believe it does.
    The principal costs are only financial in cases where the broader 
Department decides that it is unwilling to accept NNSA's independent 
action and seeks to duplicate it. That this sometimes happens. On the 
other hand, the amount of effort required to process personnel actions 
does not change significantly whether those performing such actions are 
in one organization or two.
    The most significant cost of the present arrangement, however, is 
the need to coordinate in order that the Department may speak with a 
consistent voice. One of the Secretaries of Energy for whom I worked, 
was particularly concerned with this aspect. I acknowledge that this is 
in fact a real cost but I believe that the benefits of maintaining a 
separately organized NNSA are worth paying that cost.

    Ms. Sanchez. 52) Do you think that it would have been a better 
decision to place NNSA nuclear facilities under Nuclear Regulatory 
Commission regulation? Why or why not?
    Dr. Kuckuck. It appears to me that the oversight model of our 
civilian nuclear industry functions in a considerably more balanced 
manner than does the DOE oversight of our nuclear weapons complex. I do 
not see any added value in the latter, but do see considerable added 
cost. I believe the NRC or an NRC-like model could be preferable for 
the weapons complex.
    Ms. Sanchez. 53) Some have asserted that NNSA and its contractors 
have reached a mature and high level of safety performance. However, 
just in the past year, NNSA site managers have needed to issue a number 
of letters to their contractors to correct significant safety 
deficiencies.
    Examples include:
        a.   Letter from the LANL Manager to LANS dated September 16, 
        2011, regarding the safety of operations at LANL
        b.   Letter from the Pantex Manager to B&W Pantex dated 
        December 2, 2011, regarding the quality and safety of work at 
        Pantex
        c.   Letter from the Pantex Manager to B&W Pantex dated May 29, 
        2012, regarding deficiencies in safety-related fire suppression 
        systems
        d.   Letter from the Y-12 Manager to B&W Y-12 dated January 26, 
        2012, regarding safety risks from hazardous energy sources
        e.   Letter from the Y-12 Manager to B&W Y-12 dated May 21, 
        2012, regarding deficiencies in isolating hazardous energy 
        sources (the lockout/tagout process)
    So, given the number and significance of ongoing safety 
deficiencies noted in these letters, do you believe that NNSA and its 
contractors have reached a mature, conservative level of safety 
performance with regard to complex, nuclear operations, maintenance and 
design/construction of new facilities such that they no longer need the 
oversight/regulation functions currently performed by DOE? If so, what 
data or metrics are you aware of that support your position?
    Dr. Kuckuck. I no longer have sufficient knowledge of the specifics 
of day-to-day oversight by the Site Managers of the NNSA laboratories 
and plants to answer this question adequately. However, I think a key 
word in your question would be the ``significance'' of the 
deficiencies. In my experience both in my laboratory career as well as 
my NNSA career, many of those deficiencies cited by the DOE overseers 
were minor and of an administrative nature--in a system of excessive 
and overwhelming paperwork.
    Ms. Sanchez. 54) When you were at NNSA, you came to agreement with 
the Office of Health Safety and Security on implementing safety 
regulations. Can you provide us more details on this process and its 
impact?
    Dr. Kuckuck. I was not part of this process or agreement while at 
NNSA.
    Ms. Sanchez. 55) Mr. Aloise noted in his testimony that 
``Significant improvement is still needed especially in NNSA's 
management of its major projects and contracts.''
    Should contractors subcontract major construction projects or 
should NNSA contract and manage these directly? As an example, NNSA in 
recent years had a pilot program consisting of NNSA contracting 
directly for the repair of roves across the nuclear complex which was a 
successful effort but was discontinued.
    Dr. Kuckuck. I believe there are many underlying factors that 
complicate construction projects in the NNSA. As in other areas, 
excessive regulation, either explicit from NNSA (DOE), or implicit from 
the Defense Nuclear Facilities Safety Board, play a major role in the 
cost and schedule of NNSA facilities. Improving the overall NNSA model 
will aid considerably in improving performance on major construction 
projects.
    Ms. Sanchez. 56) What is the role for independent safety oversight? 
What is the appropriate risk level for hazardous and nuclear 
operations?
    Dr. Kuckuck. Obviously, the NNSA laboratories and plants should 
have independent safety oversight. Particular risk levels or standards 
should be developed in a balanced way. I would believe the NRC model 
and standards might be relevant.
    Ms. Sanchez. 57) Who should balance risk and mission? Should it be 
NNSA or the labs?
    Dr. Kuckuck. Both should have a role, and one would hope a 
relationship would exist that would provide the nation a reasonable 
balance.
    Ms. Sanchez. 58) Do you believe it's prudent to remove independent 
oversight from either NNSA or its contractors?
    Dr. Kuckuck. No.
    Ms. Sanchez. 59) Should the NNSA Administrator, as is the case in 
Naval Reactors and as is the case for the Ministry of Defence in the 
UK, have the authority to lose confidence in any contractor employee 
from the director to lower levels, to increase accountability from the 
laboratories?
    Dr. Kuckuck. Of course, they have the authority to ``lose 
confidence'' in an employee. However, I believe the subsequent 
consequences of that loss of confidence must be addressed in advance by 
both sides in their contractual agreements.
    Ms. Sanchez. 60) Can you comment on the increase in fees post-
privatization of the labs? With such a disparity in fees paid to the 
labs, with Sandia National Laboratory receiving a third of the fee that 
LANL and LLNL receive, do you think the mission or performance change 
depending on the fee level?
    Dr. Kuckuck. My career at the laboratories was totally during the 
time they were managed by the University of California. There were no 
fees until my later years when fees were forced upon the UC by DOE, and 
even then the UC turned them all back to the laboratories to invest in 
R&D for the nation. There was no impact on performance one way or the 
other. I am not in a position to comment on what role fees play under 
the new LLC management contracts, but knowing the dedication, 
commitment and patriotism of the people at our national laboratories, I 
cannot imagine that the award of fees would affect mission performance 
per se. However, I am not cognizant of the extent, if any, to which 
these fees may be decreasing the resources available for mission.
    Ms. Sanchez. 61) You say in your testimony that ``As Director of 
the Los Alamos National Laboratory in 2005-2006, I was disappointed 
that the laboratory working environment at least as burdensome as I had 
experienced at Livermore prior to the creation of NNSA, and 
unfortunately, somewhat more adversarial.'' Why do you think the 
environment became more adversarial after the creation of NNSA?
    Dr. Kuckuck. I cannot be sure if my perceived increase in adversity 
was due to a change in time, place or people, or even me. However, I 
would suspect that most people were optimistic about the improvements 
that were expected with the creation of the NNSA in 2000 and as these 
improvements did not materialize as the years went by, perhaps even 
worsened, tensions and frustrations, and hence, conflicts invariably 
grew.
    Ms. Sanchez. 62) How do we instill a culture of trust and expertise 
going forward?
    Dr. Kuckuck. This is a difficult question and if there was a simple 
answer, I think we would have achieved it by now. I think such an end 
state will be based on new faces and a fresh start. Hence, beginning 
with a severance from the past is probably a reasonable first step.
    Ms. Sanchez. 63) How do you improve lines of authority to avoid 
conflicting directives?
    Dr. Kuckuck. I think the NNSA report of February, 2002 stated an 
appropriate management and oversight model.
    Ms. Sanchez. 64) There have been a number of changes in the past 
year, including DOE streamlining duplicative regulations and NNSA 
moving the site manager reporting authority to the office of the 
Administrator. Can you share your insights and comment on these 
management and governance changes?
    Dr. Kuckuck. I have no data upon which to judge the change in 
reporting of site managers. However, I have seen no evidence of 
streamlined or simplified governance.
    Ms. Sanchez. 65) What mechanisms would you recommend to drive down 
costs and ensure efficiencies?
    Dr. Kuckuck. Eliminate excessive oversight and trust the expertise 
embedded in our laboratories. Replace current safety oversight with a 
more balanced, but still independent model.
    Ms. Sanchez. 66) There are efforts, including in the House NDAA to 
reduce the number of NNSA FTEs as progress is made to streamline 
management. Could you comment on the risk and benefits of reducing the 
number of FTEs at NNSA. If such reductions occur, should we see a 
proportional number of efficiencies at labs and cost savings at the 
labs?
    Dr. Kuckuck. I believe the NNSA would be considerably more 
efficient with fewer Federal employees. I think efficiencies would also 
result at the laboratories.
    Ms. Sanchez. 67) Do you believe that NNSA and their contractors can 
accomplish required levels of oversight/self-regulation for complex 
high-hazard nuclear operations through a system of performance-based 
self-assessments by the contractor and NNSA with no transactional 
oversight? If you believe performance-based oversight should be 
employed, what level of accidents, if any, do you believe would require 
a reinstitution of transactional oversight for complex high-hazard 
nuclear operations?
    Dr. Kuckuck. I believe that NNSA and their contractors can indeed 
manage and operate high-hazard nuclear operations at a safe level. I 
believe there should also be balanced, independent performance-based 
(vice transactional) oversight.
    Ms. Sanchez. 68) What challenges remain to improve accountability 
and cost effectiveness?
    Dr. Kuckuck. There will always be challenges to improve 
accountability and cost effectiveness. The specifics will vary in both 
place and time, but continuous improvement should be a fundamental 
principle of any endeavor.
    Ms. Sanchez. 69) In 2011, the Department of Energy Inspector 
General issued a report entitled ``Management Challenges at the 
Department of Energy'' which recommended eliminated duplicative 
functions at the NNSA, including General Counsel, Chief Information 
Officer, Human Resources, Public Affairs. What are the benefits and 
risks of this approach? What is the cost of having separate functions?
    Dr. Kuckuck. I believe there are no risks with this approach. The 
benefits would be the NNSA having the ability to streamline and reduce 
the burdens of excessive oversight that the DOE currently brings to the 
table. The costs of separate functions would be negligible compared to 
the savings that would accrue.

    Ms. Sanchez. 70) Do you think that it would have been a better 
decision to place NNSA nuclear facilities under Nuclear Regulatory 
Commission regulation? Why or why not?
    Mr. Aloise. Our October 2008 report addressed the issue of 
potentially transferring the regulation of DOE nuclear facilities to 
the Nuclear Regulatory Commission or to the Defense Nuclear Facilities 
Safety Board. [GAO-09-61.] Specifically, we assessed the extent to 
which the DOE office responsible for independent assessments of nuclear 
safety--the Office of Health, Safety, and Security (HSS)--met GAO's 
elements of effective independent nuclear safety oversight. We found 
that HSS fell short of fully meeting these criteria. For example, the 
office's ability to function independently is limited because it has no 
role in reviewing the technical analysis that helps ensure safe design 
and operation of nuclear facilities. Nearly all of the shortcomings 
that we identified were caused, in part, by DOE's desire to strengthen 
oversight by the program offices that are responsible for carrying out 
DOE's various missions, with HSS providing assistance. We recommended 
that if DOE did not take the necessary actions to meet the criteria for 
effective independent oversight, then the Congress should consider, 
among other things, shifting the responsibility for regulating nuclear 
safety to Defense Nuclear Facilities Safety Board or to the Nuclear 
Regulatory Commission. DOE has taken some actions in response to the 
recommendations made in this report, but we reported in April 2012 that 
recent revisions to safety requirements may undermine efforts to 
establish an effective safety culture at DOE's nuclear facilities and 
weaken independent oversight of nuclear safety. [GAO-12-347] We 
recommended in October 2008 that if DOE does not take appropriate 
action to meet the criteria for independent oversight as defined in our 
report, then the Congress should consider the following:
    <bullet>  permanently establishing in law the responsibilities of 
HSS,
    <bullet>  shifting DOE to external regulation by providing the 
resources and authority to the Defense Nuclear Facilities Safety Board 
to oversee all DOE nuclear facilities and to enforce DOE nuclear safety 
rules and directives, or
    <bullet>  providing the resources and authority to NRC to 
externally regulate all or just newly constructed DOE nuclear 
facilities.
    Appendix V of our 2007 report assessed the options for the external 
regulation of DOE nuclear facilities, either by the Defense Nuclear 
Facilities Safety Board or the Nuclear Regulatory Commission. As 
discussed in this appendix, shifting responsibility for external 
regulation to either of these organizations appears practical, if they 
are given the necessary authority and resources. We reported that that 
Nuclear Regulatory Commission had not expressed a view on expanding its 
oversight role beyond the DOE facilities already subject to the 
commission's regulation. DOE and the Defense Nuclear Facilities Safety 
Board have taken issue with this option because of concerns about the 
transition costs compared with the likely safety benefits of doing so. 
[GAO-09-61.]
    Ms. Sanchez. 71) Some have asserted that NNSA and its contractors 
have reached a mature and high level of safety performance. However, 
just in the past year, NNSA site managers have needed to issue a number 
of letters to their contractors to correct significant safety 
deficiencies.
    Examples include:
        a.   Letter from the LANL Manager to LANS dated September 16, 
        2011, regarding the safety of operations at LANL
        b.   Letter from the Pantex Manager to B&W Pantex dated 
        December 2, 2011, regarding the quality and safety of work at 
        Pantex
        c.   Letter from the Pantex Manager to B&W Pantex dated May 29, 
        2012, regarding deficiencies in safety-related fire suppression 
        systems
        d.   Letter from the Y-12 Manager to B&W Y-12 dated January 26, 
        2012, regarding safety risks from hazardous energy sources
        e.   Letter from the Y-12 Manager to B&W Y-12 dated May 21, 
        2012, regarding deficiencies in isolating hazardous energy 
        sources (the lockout/tagout process)
    So, given the number and significance of ongoing safety 
deficiencies noted in these letters, do you believe that NNSA and its 
contractors have reached a mature, conservative level of safety 
performance with regard to complex, nuclear operations, maintenance and 
design/construction of new facilities such that they no longer need the 
oversight/regulation functions currently performed by DOE? If so, what 
data or metrics are you aware of that support your position?
    Mr. Aloise. DOE's nuclear facilities will always require a degree 
of oversight and regulation. As we reported October 2008 and April 
2012, [GAO-09-61, GAO-12-347], we have concerns about the extent to 
which the efforts of DOE's Office of Health, Safety, and Security (HSS) 
meet the elements of effective oversight. As we reported in 2012, DOE 
has acted to reform its safety practices, including greater emphasis on 
having HSS review safety design documents for facilities at DOE sites 
before their construction, but revisions to nuclear safety requirements 
may weaken HSS's ability to conduct independent oversight. For example, 
DOE's reform effort did not fully address safety concerns we and others 
have identified in three key areas: (1) quality assurance, (2) safety 
culture, and (3) Federal oversight. Regarding quality assurance, DOE 
strengthened its quality assurance directive by clarifying that 
contractors must follow specific industry quality assurance standards, 
but quality assurance problems persist. For example, DOE proposed a 
nearly $250,000 fine against a contractor in July 2011 after 
identifying quality assurance problems in an incident where a worker 
punctured his hand with a sharp object contaminated with plutonium. 
With regard to safety culture, DOE revised its Integrated Safety 
Management directives to attempt to strengthen the safety culture at 
its sites, but DOE removed requirements for contractors to follow the 
directives because contractors already had to comply with safety 
management requirements in Federal regulation. Defense Nuclear Safety 
Board officials raised concerns that the requirements in Federal 
regulation are less detailed and, as a result, contractors may not 
implement safety practices as rigorously as if they were subject to the 
more specific requirements in DOE's directives. Finally, regarding 
Federal oversight, DOE revised its approach to place greater emphasis 
on having its independent oversight staff review safety design 
documents before facilities are constructed, rather than after they are 
built. Other changes, however, such as requiring oversight staff to 
coordinate their assessment activities with DOE site office and 
contractor staff, raise concerns about the oversight staff's ability to 
provide a critical review of safety at DOE's sites that is independent 
from DOE site office and contractor staff.
    Ms. Sanchez. 72) You issued a GAO report in February 2012, 
Observations on NNSA's Management and Oversight of the Nuclear Security 
Enterprise (GAO-12-473T). The purpose of that report was to explore 
NNSA's oversight of safety and security in the nuclear security 
enterprise. Your conclusion in this report was, and I quote, ``GAO 
agrees that excessive oversight and micromanagement of contractors' 
activities are not an efficient use of scarce federal resources, but 
that NNSA's problems are not caused by excessive oversight but instead 
result from ineffective departmental oversight.''
    Could you please further explain this conclusion?
    Mr. Aloise. Our previous testimonies have focused on problems NNSA 
and DOE have experienced in terms of safety, security, and project and 
contract management. In our view, we cannot trace these problems to 
micromanagement nor could DOE's Inspector General establish a causal 
link too overly burdensome regulation. Addressing NNSA's ineffective 
management requires the following:
    <bullet>  well-trained Federal personnel, both in headquarters and 
in the field, with a thorough understanding of NNSA sites and programs;
    <bullet>  contracts with measurable performance targets and 
financial incentives to meet these targets;
    <bullet>  contractor assurance systems that provide detailed 
information on, among other things, achieving performance targets;
    <bullet>  strong Federal leadership to hold NNSA contractors 
accountable for their performance; and
    <bullet>  vigorous independent oversight in the crucial areas of 
safety and security.
    Ms. Sanchez. 73) In October 2008, GAO issued the report, Department 
of Energy Needs to Strengthen Its Independent Oversight of Nuclear 
Facilities and Operations (GAO-09-61). One conclusion included in that 
report was, ``HSS [Office of Health Safety and Security] falls short of 
fully meeting GAO's elements of effective independent oversight of 
nuclear safety . . . '' Another conclusion was, ``In the absence of 
external regulation, DOE needs HSS to be more involved in nuclear 
safety oversight because a key objective of independent oversight is to 
avoid the potential conflicts of interest that are inherent in program 
office oversight.''
    Do you believe that the Department has made any significant 
improvements in oversight since you issued this report in October 2008?
    Do you believe that the oversight model outlined in H.R. 4310 can 
satisfy the elements of effective independent oversight that GAO used 
as its standard of comparison in 2008?
    Mr. Aloise. DOE's Office of Health, Safety, and Security (HSS) took 
a number of important steps to implement the recommendations we made in 
our October 2008 report. For example, as we reported in April 2012 
[GAO-12-347.], HSS is reviewing safety design documents for facilities 
at DOE sites before their construction and establishing site leads 
within HSS to maintain and assess all aspects of a site's operations. 
However, we also reported that recent revisions to safety requirements 
may weaken HSS's ability to conduct independent oversight. For example, 
we found that HHS must now coordinate its assessment activities with 
site office management, which could compromise the ability of HHS to 
perform its mission independently.
    Concerning H.R. 4310, we have not formally evaluated the proposed 
legislation, but we observe that any revisions to independent oversight 
of NNSA should adhere to the criteria we used in evaluating the 
effectiveness of HSS in October 2008. These criteria include (1) 
independence, (2) technical expertise, (3) capability to perform 
reviews and have findings effectively addressed, (4) enforcement, and 
(5) public access to facility information.
    Ms. Sanchez. 74) Mr. Aloise noted in his testimony that 
``Significant improvement is still needed especially in NNSA's 
management of its major projects and contracts.''
    Should contractors subcontract major construction projects or 
should NNSA contract and manage these directly? As an example, NNSA in 
recent years had a pilot program consisting of NNSA contracting 
directly for the repair of roves across the nuclear complex which was a 
successful effort but was discontinued.
    Mr. Aloise. We have not specifically examined whether contractors 
should subcontract major construction projects or whether NNSA should 
contract and manage these projects directly. However, in our 2011 
report on two planned NNSA procurements, [GAO, Modernizing the Nuclear 
Security Enterprise: The National Nuclear Security Administration's 
Proposed Acquisition Strategy Needs Further Clarification and 
Assessment, GAO-11-848 (Washington, D.C.: Sept. 20, 11).], we noted 
that the agency's own analysis showed that simply changing contract 
types and structures will produce little effect unless NNSA better 
manages its contracts. Furthermore, we reported that NNSA's analysis 
underpinning its procurement decisions also identified 18 better 
management practices--some of which could be accomplished now through 
existing contracts--such as improving enterprisewide collection and 
analysis of costs that could lead to greater efficiencies regardless of 
the contracting strategy employed.
    We are also on record as opposing DOE's use of ``fast-track'' 
design-build--where design, construction, and technology development 
occur simultaneously--for designing and constructing one-of-a-kind, 
complex nuclear facilities. We have found that this approach, among 
other things, increases the risk of encountering problems that can 
increase a project's cost and delay completion on schedule. [GAO, 
Hanford Waste Treatment Plant: Contractor and DOE Management Problems 
Have Led to Higher Costs, Construction Delays, and Safety Concerns, 
GAO-06-602T (Washington, D.C.: Apr. 6, 2006).]
    Ms. Sanchez. 75) What is the role for independent safety oversight? 
What is the appropriate risk level for hazardous and nuclear 
operations?
    Mr. Aloise. As we reported in October 2008, any independent 
regulatory authority would need to meet the criteria for effective 
independent oversight: independence, technical expertise, ability to 
perform reviews and have findings effectively addressed, enforcement, 
and public access to facility information. [GAO-09-61.] As we reported, 
DOE and/or Congress have the following options they could take to 
improve independent oversight:
    <bullet>  permanently establishing in law the responsibilities of 
DOE's Office of Health, Safety and Security;
    <bullet>  shifting DOE to external regulation by providing the 
resources and authority to the Defense Nuclear Facilities Safety Board 
to oversee all DOE nuclear facilities and to enforce DOE nuclear safety 
rules and directives; or
    <bullet>  providing the resources and authority to the Nuclear 
Regulatory Commission to externally regulate all or just newly 
constructed DOE nuclear facilities.
    Appendix V of our 2008 report assessed the options for external 
regulation of DOE nuclear facilities, either by the Defense Nuclear 
Facilities Safety Board or the Nuclear Regulatory Commission. As 
discussed in this appendix, shifting responsibility for external 
regulation to either of these organizations appears practical, given 
the necessary authority and resources. We reported that NRC had not 
expressed a view on expanding its oversight role beyond the DOE 
facilities already subject to NRC regulation. DOE and the Safety Board 
have taken issue with this option because of concerns about the 
transition costs compared with the likely safety benefits of doing so.
    Ms. Sanchez. 76) Who should balance risk and mission? Should it be 
NNSA or the labs?
    Mr. Aloise. Both NNSA and its contractors share responsibilities in 
managing the risks of day-to-day activities. However, the nuclear 
enterprise's sites, including facilities and equipment, are Government 
owned and contractor operated, formal acceptance of risk--balancing 
mission needs compared with potential risks--is ultimately a Federal 
responsibility. Some high-security risks require the notification of 
the Secretary of Energy.
    Ms. Sanchez. 77) Do you believe it's prudent to remove independent 
oversight from either NNSA or its contractors?
    Mr. Aloise. No. In our view there will always be a need for 
independent oversight for health, safety and security issues.
    Ms. Sanchez. 78) Do you believe that the DNFSB performs a needed, 
independent oversight function?
    Mr. Aloise. Yes. In our view, the Defense Nuclear Facilities Safety 
Board performs a needed, independent oversight function. In our October 
2008 review of DOE's Office of Health, Safety, and Security, [GAO-09-
61.] we noted that the Safety Board was given responsibilities to (1) 
review and evaluate the content and implementation of the standards for 
the design, construction, operation, and decommissioning of defense 
nuclear facilities; (2) investigate any event or practice at these 
facilities that it determines has adversely affected or may adversely 
affect public health and safety; (3) analyze design and operational 
data, including safety analysis reports; (4) review new facility design 
and monitor construction, recommending any changes within a reasonable 
time period; and (5) make such recommendations to the Secretary of 
Energy, considering the technical and economic feasibility of 
implementing them. By statute, the Secretary must respond in writing to 
the Safety Board to accept or reject the recommendation and make this 
public. If the Safety Board transmits a recommendation relating to an 
imminent or severe threat, it is to also transmit the recommendation to 
the President and provide as information to the Secretary of Defense. 
The President is to review DOE's response and accept or reject the 
Safety Board's recommendation. The Safety Board does not have the 
authority of a regulator but rather uses both informal interactions and 
formal communications with DOE to implement its statutory ``action 
forcing authorities.'' We believe that this range of responsibilities 
is an important aspect of ensuring the safety of DOE's defense nuclear 
facilities.
    We did note in our report, however, the following limitations with 
the Safety Board's responsibilities:
    <bullet>  As of December 2007, the Safety Board did not have 
responsibility for DOE's 51 nondefense high-hazard nuclear facilities.
    <bullet>  While DOE had been responsive to the Safety Board's 
recommendations, a number of past deficiencies remained unresolved, and 
the pace of closure for many other recommendations has been slow. 
Specifically, it had taken DOE up to 11 years to obtain closure from 
the Safety Board for some recommendations, and some systemwide 
recommendations had remained open for a decade or more.
    <bullet>  A 1995 DOE Advisory Committee report found that the 
Safety Board was not subject to the same checks and balances as Nuclear 
Regulatory Commission is with respect to regulating NRC's licensees.
    Ms. Sanchez. 79) Do you think that oversight by the Defense Nuclear 
Facilities Safety Board has helped or hindered the ability of NNSA to 
carry out its missions?
    Mr. Aloise. We believe that the Defense Nuclear Facilities Safety 
Board has helped NNSA to carry out its missions. As described in our 
response to question 78, the Defense Nuclear Facilities Safety Board's 
primary responsibility is safety. However, we also believe safety and 
security are fundamental components of DOE and NNSA's missions. 
Furthermore, we do not believe that the Defense Nuclear Facilities 
Safety Board has hindered NNSA's mission because, according to statute, 
it is a DOE responsibility to accept or reject the Defense Nuclear 
Facilities Safety Board's recommendations and the Defense Nuclear 
Facilities Safety Board has no enforcement authority. In our view, it 
is the responsibility of DOE and NNSA to balance mission needs with the 
Defense Nuclear Facilities Safety Board's recommendations.
    Ms. Sanchez. 80) Should the NNSA Administrator, as is the case in 
Naval Reactors and as is the case for the Ministry of Defence in the 
UK, have the authority to lose confidence in any contractor employee 
from the director to lower levels, to increase accountability from the 
laboratories?
    Mr. Aloise. We are not in a position to address this question 
because we have not examined how NNSA's Office of Naval Reactors or the 
Ministry of Defence in the United Kingdom manage their contractors.
    Ms. Sanchez. 81) Can you comment on the increase in fees post-
privatization of the labs? With such a disparity in fees paid to the 
labs, with Sandia National Laboratory receiving a third of the fee that 
LANL and LLNL receive, do you think the mission or performance change 
depending on the fee level?
    Mr. Aloise. We are not in a position to address this question 
because we have not systematically examined whether the additional 
costs of the Los Alamos National Laboratory and the Lawrence Livermore 
National Laboratory contracts have been worth the additional fees. A 
recent National Academy of Sciences study reported that additional 
costs for the two laboratories total about $210 million annually. These 
costs include fees, taxes, and personnel issues, such as pension 
changes. We note that this study found little relationship between the 
nature of the laboratories' contracts and their scientific and 
engineering accomplishments and outputs, which continue at a high 
level. NNSA plans to recomplete the Sandia National Laboratory contract 
in the near future, but we do not know the details of NNSA's planned 
acquisition strategy.
    Ms. Sanchez. 82) How do we instill a culture of trust and expertise 
going forward?
    Mr. Aloise. Given NNSA's record of weak management of its major 
projects, safety and security issues, and lack of basic enterprisewide 
data, we believe that careful and capable Federal oversight is critical 
to an efficient and effective nuclear weapons program. We support 
NNSA's efforts to move to more effective, performance-based oversight. 
As we testified in February 2012, NNSA's progress has been mixed. [GAO, 
National Nuclear Security Administration: Observations on NNSA's 
Management and Oversight of the Nuclear Security Enterprise, GAO-12-
473T (Washington, D.C.: Feb. 16, 2012).] Based on our past and ongoing 
work, we believe important elements of performance-based oversight 
include the following:
    <bullet>  well-trained Federal personnel, both in headquarters and 
in the field; with a thorough understanding of NNSA sites and programs;
    <bullet>  contracts with measurable performance targets and 
financial incentives to meet these targets;
    <bullet>  contractor assurance systems that provide detailed 
information on, among other things, achieving performance targets;
    <bullet>  strong Federal leadership to hold NNSA contractors 
accountable for their performance; and
    <bullet>  vigorous independent oversight in the crucial areas of 
safety and security.
    Ms. Sanchez. 83) How do you improve lines of authority to avoid 
conflicting directives?
    Mr. Aloise. The creation of NNSA and its implementation have 
already largely addressed the issue of improving the lines of 
authority. As we reported in June 2004, by better delineating lines of 
authority between NNSA headquarters and its field offices, NNSA's 
reorganization has addressed past problems, such as communication 
problems resulting from the overlapping roles and responsibilities of 
the Federal workforce that oversees the nuclear weapons program. [GAO, 
National Nuclear Security Administration: Key Management Structure and 
Workforce Planning Issues Remain as NNSA Conducts Downsizing, GAO-04-
545, (Washington, D.C.: June 25, 2004).] For example, according to NNSA 
site office managers, the streamlined structure has improved vertical 
communication because communication channels between headquarters and 
the field do not involve an extra layer of management in the operations 
offices. In addition, the realignment provides NNSA site office 
managers with additional authority to manage contractors and assigns 
them responsibility for the day-to-day security and safety of 
contractor operations. As a result, the realignment has strengthened 
the hand of local NNSA site office managers, who now have the authority 
to shut down operations for safety and security reasons.
    We have not systematically examined the issue of conflicting 
directives, but we reported on DOE's and NNSA's efforts to streamline 
directives. [GAO, Nuclear Safety: DOE Needs to Determine the Costs and 
Benefits of Its Safety Reform Effort, GAO-12-347 (Washington, D.C.: 
Apr. 20, 2012).] In addition, NNSA has the authority to develop its own 
tailored directives through its Policy Letter procedure. [NNSA, Policy 
Letters: NNSA Policies, Supplemental Directives, and Business Operating 
Procedures, NASD 251.1 (Washington, D.C.: July 5, 2011).]
    Ms. Sanchez. 84) There have been a number of changes in the past 
year, including DOE streamlining duplicative regulations and NNSA 
moving the site manager reporting authority to the office of the 
Administrator. Can you share your insights and comment on these 
management and governance changes?
    Mr. Aloise. As we reported in July 2012, the benefits of DOE's 
reform effort announced in a March 2010 memorandum--reducing the number 
of safety-related directives from 80 to 42 by eliminating or combining 
requirements the Department determined were unclear, duplicative, or 
too prescriptive and by encouraging the use of industry standards--are 
not clear for several reasons. [GAO-12-347] Specifically, DOE did not 
(1) determine how the original requirements impaired productivity or 
added costs, (2) assess whether the cost to implement the revised 
directives would exceed the benefits, or (3) develop performance 
measures in order to assess how the reform effort will lead to improved 
productivity or lower costs. Furthermore, DOE's safety reform effort 
did not fully address safety concerns we and others identified in the 
areas of quality assurance, safety culture, and Federal oversight. In 
fact, some of the revisions DOE made to its safety-related directives 
may actually result in weakened independent oversight. For example, 
while DOE policy notes that independent oversight is integral to help 
ensure the effectiveness of safety performance, DOE's Office of 
Independent Oversight staff must now coordinate its assessment 
activities with NNSA site office management to maximize the use of 
resources. This arrangement potentially raises concerns about whether 
Office of Independent Oversight staff will be sufficiently independent 
from site office management. In addition, the reform effort gives the 
NNSA site office, rather than Office of Independent Oversight staff, 
increased responsibility for managing actions to correct problems 
identified in independent assessments. Site office determinations of 
what issues require more formal contractor responses may be influenced 
by the fact that the site offices also have responsibility for keeping 
costs under control and work on schedule.
    We have not examined NNSA's governance changes, which involved 
revising the agency's business model to, among other things, place more 
reliance on contractors' self-oversight through contractor assurance 
systems to ensure such things as effective safety and security 
performance. However, in response to the new business model, the 
Defense Nuclear Facilities Safety Board and the DOE Office of Inspector 
General raised concerns about contractor assurance systems. For 
example, in an April 2011 congressional testimony, the chairman of 
Safety Board stated that contractor assurance systems at defense 
nuclear facilities have not achieved a degree of effectiveness that 
would warrant a reduction in Federal safety oversight and that they are 
not expected to achieve this effectiveness in the foreseeable future.
    Ms. Sanchez. 85) What mechanisms would you recommend to drive down 
costs and ensure efficiencies?
    Mr. Aloise. In terms of project and contract and project 
management, NNSA remains on our high-risk list and remains vulnerable 
to fraud, waste, abuse, and mismanagement. DOE has recently taken a 
number of actions to improve management of major projects, including 
those overseen by NNSA. For example, DOE has updated program and 
project management policies and guidance in an effort to improve the 
reliability of project cost estimates, better assess project risks, and 
better ensure project reviews that are timely and useful and identify 
problems early. Although DOE's responses to our recommendations and its 
own findings have been largely positive, and a number of corrective 
actions have been taken, problems persist, as demonstrated by a number 
of our recent reports, which we summarized in our February and June 
2012 testimonies. However, DOE needs to ensure that NNSA has the 
capacity--that is, the people and other resources--to resolve its 
project management difficulties and that it has a program to monitor 
and independently validate the effectiveness and sustainability of its 
corrective measures. This is particularly important as NNSA embarks on 
its long-term, multibillion-dollar effort to modernize the nuclear 
security enterprise.
    Ms. Sanchez. 86) There are efforts, including in the House NDAA to 
reduce the number of NNSA FTEs as progress is made to streamline 
management. Could you comment on the risk and benefits of reducing the 
number of FTEs at NNSA. If such reductions occur, should we see a 
proportional number of efficiencies at labs and cost savings at the 
labs?
    Mr. Aloise. Based on previous work, reducing the number of NNSA 
employees without completing workforce plans now being developed could 
have risks. For strategic planning purposes, NNSA is undertaking a 
comprehensive reassessment and analysis of staffing requirements to 
ascertain future Federal workforce requirements. NNSA-wide workforce 
plans are not expected to be completed until 2013, according to NNSA 
officials. [GAO, Modernizing the Nuclear Security Enterprise, 
Strategies and Challenges in Sustaining Critical Skills in Federal and 
Contractor Workforces, GAO-12-468 (Washington, D.C.: Apr. 26, 2012).] 
These plans are critical to effective streamlining of management. As we 
have reported, when downsizing takes place in an unstructured 
environment, agencies experience significant challenges to deploying 
people with the right skills, in the right places, at the right time, 
and to performing its missions economically, efficiently, and 
effectively. For example, in June 2004 we reported that an earlier NNSA 
reorganization was unlikely to ensure that the agency had sufficient 
staff with the right skills in the right places because NNSA chose to 
downsize its Federal workforce without determining what critical skills 
and capabilities it needed to meet its mission and program goals. [GAO, 
National Nuclear Security Administration: Key Management Structure and 
Workforce Planning Issues Remain as NNSA Conducts Downsizing, GAO-04-
545, (Washington, D.C.: June 25, 2004).] In December 2001, we reported 
that NNSA did not have the coherent human capital and workforce 
planning strategies it needed to develop and maintain a well managed 
workforce over the long run. [GAO, NNSA Management: Progress in the 
Implementation of Title 32, GAO-02-93R (Washington, D.C.: Dec. 12, 
2001).] Consequently, we recommended that NNSA develop a thorough human 
capital and workforce planning strategy. Instead of developing a 
workforce plan, according to a senior NNSA official, NNSA managers 
relied on their judgment about how much to reduce the Federal staff and 
where those reductions should occur in carrying out its December 2002 
reorganization. NNSA did develop a workforce plan in December 2003 that 
attempted to establish a framework for long-term workforce planning, 
but this plan is of limited use without current statistics on 
workforce, positions, and organizational structures.
    We are uncertain what, if any, NNSA Federal workforce reductions 
would have on the contractor workforce.
    Ms. Sanchez. 87) Do you believe that NNSA and their contractors can 
accomplish required levels of oversight/self-regulation for complex 
high-hazard nuclear operations through a system of performance-based 
self-assessments by the contractor and NNSA with no transactional 
oversight? If you believe performance-based oversight should be 
employed, what level of accidents, if any, do you believe would require 
a reinstitution of transactional oversight for complex high-hazard 
nuclear operations?
    Mr. Aloise. We are supportive of NNSA's moves toward a more 
performance-based approach to oversight. For example, in our review of 
security at Los Alamos National Laboratory, we recommended that the 
Administrator of NNSA provide meaningful financial incentives in future 
performance evaluation plans for implementation of for laboratory 
security. [GAO, Los Alamos National Laboratory: Long-Term Strategies 
Needed to Improve Security and Management Oversight, GAO-08-694 
(Washington, D.C.: June 13, 2008).] We similarly recommended providing 
financial incentives to LLNL's contractor to sustain security 
performance improvements. [GAO, Nuclear Security: Better Oversight 
Needed to Ensure That Security Improvements at Lawrence Livermore 
National Laboratory Are Fully Implemented and Sustained, GAO-09-321 
(Washington, D.C.: Mar. 16, 2009).] However, in our view, effectively 
evaluating performance, as opposed to ensuring compliance, is likely to 
be more demanding, will require skilled personnel, and needs to be done 
more than once a year. More specifically, our past work has found 
issues with NNSA's oversight of security, including staffing shortages 
at NNSA site offices, inadequate security staff training, and lack of 
comprehensive security data. These issues have hampered the agency's 
understanding of the overall effectiveness of its security program. 
[GAO-07-36.]
    We have made similar findings regarding NNSA's project management. 
While noting recent actions, we believe that DOE needs to ensure that 
NNSA has the capacity--that is, the people and other resources--to 
resolve its project management difficulties and that it has a program 
to monitor and independently validate the effectiveness and 
sustainability of its corrective measures. This is particularly 
important as NNSA embarks on its long-term, multibillion-dollar effort 
to modernize the nuclear security enterprise. [GAO-12-473]
    Contractor self-assessments are important but are just one element 
of a contract administration and oversight program. Other elements of 
equal importance are the following:
    <bullet>  well-trained Federal personnel, both in headquarters and 
in the field, with a thorough understanding of NNSA sites and programs;
    <bullet>  contracts with measurable performance targets and 
financial incentives to meet these targets;
    <bullet>  contractor assurance systems that provide detailed 
information on, among other things, achieving performance targets;
    <bullet>  strong Federal leadership to hold NNSA contractors 
accountable for their performance; and
    <bullet>  vigorous independent oversight in the crucial areas of 
safety and security.
    Ms. Sanchez. 88) What challenges remain to improve accountability 
and cost effectiveness?
    Mr. Aloise. In terms of accountability and cost effects in managing 
projects and contracts, NNSA remains on our high-risk list and remains 
vulnerable to fraud, waste, abuse, and mismanagement. DOE has recently 
taken a number of actions to improve management of major projects, 
including those overseen by NNSA. For example, DOE has updated program 
and project management policies and guidance in an effort to improve 
the reliability of project cost estimates, better assess project risks, 
and better ensure project reviews that are timely and useful and 
identify problems early. Although DOE's responses to our 
recommendations and its own findings have been largely positive, and a 
number of corrective actions have been taken, problems persist, as 
demonstrated by a number of our recent reports, which are summarized in 
our February and June 2012 testimonies. However, DOE needs to ensure 
that NNSA has the capacity--that is, the people and other resources--to 
resolve its project management difficulties and that it has a program 
to monitor and independently validate the effectiveness and 
sustainability of its corrective measures. This capacity issue is 
particularly important as NNSA embarks on its long-term, multibillion-
dollar effort to modernize the nuclear security enterprise.
    Given NNSA's record of weak management of its major projects, 
safety and security issues, and lack of basic enterprisewide data, we 
believe that careful and capable Federal oversight is critical to an 
efficient and effective nuclear weapons program. We support NNSA's 
efforts to move to more effective, performance-based oversight. As our 
testimony shows, NNSA's progress has been mixed. [GAO-12-473T.] Based 
on our past and ongoing work, we believe important elements of 
performance based oversight include the following:
    <bullet>  well-trained Federal personnel, both in headquarters and 
in the field, with a thorough understanding of NNSA sites and programs;
    <bullet>  contracts with measurable performance targets and 
financial incentives to meet these targets;
    <bullet>  contractor assurance systems that provide detailed 
information on, among other things, achieving performance targets;
    <bullet>  strong Federal leadership to hold NNSA contractors 
accountable for their performance; and
    <bullet>  vigorous independent oversight in the crucial areas of 
safety and security.
    Ms. Sanchez. 89) In 2011, the Department of Energy Inspector 
General issued a report entitled ``Management Challenges at the 
Department of Energy'' which recommended eliminated duplicative 
functions at the NNSA, including General Counsel, Chief Information 
Officer, Human Resources, Public Affairs. What are the benefits and 
risks of this approach? What is the cost of having separate functions?
    Mr. Aloise. We share the Inspector General's views that merging 
these functions back into DOE would require amending the NNSA Act, 
which prohibits the use of dual-hatting (i.e., having DOE officials 
contemporaneously serve in NNSA and DOE positions) and specifies NNSA's 
separately organized status. Some personnel cost savings might result 
if duplicative positions were eliminated but these savings are likely 
to be small.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. 90) In 2011, the Department of Energy Inspector 
General issued a report entitled ``Management Challenges at the 
Department of Energy'' which recommended eliminating duplicative 
functions at the NNSA, including General Counsel, Chief Information 
Officer, Human Resources, and Public Affairs. 1. What are the benefits 
of this approach?
    Dr. Kuckuck. This is the same question as #69, hence, same answer.
    Mr. Langevin. 91) In 2011, the Department of Energy Inspector 
General issued a report entitled ``Management Challenges at the 
Department of Energy'' which recommended eliminating duplicative 
functions at the NNSA, including General Counsel, Chief Information 
Officer, Human Resources, and Public Affairs. 2. What is the cost of 
having separate functions?
    Dr. Kuckuck. This is the same question as #69, hence, same answer.

    Mr. Langevin. 92) Have the recommendations made by GAO in its 2007 
report been implemented satisfactorily?
    Mr. Aloise. DOE and NNSA have responded positively to 20 of the 21 
the recommendations we made in our 2007 report. [GAO-07-36.] We 
continue to monitor the agencies' progress in implementing these 
recommendations and note general progress in improving their security 
program, but more persistent problems in project management.
    DOE, however, disagreed with one of the 2007 report's 
recommendation. More specifically, we recommended that, to ensure that 
NNSA functions as a separately organized agency, the Secretary of 
Energy and the Administrator, NNSA, should clearly define NNSA's status 
as a separately organized agency within the Department. In his 31 USC 
Section 720 response to our report, the Deputy Secretary of Energy 
stated that he did not concur with this recommendation. He stated that 
elements of the Department and NNSA had executed memorandums of 
understanding specifying how certain departmentwide functions would be 
performed while respecting the statutory insulation of NNSA personnel. 
He also stated that the Department will consider issuing circumstance-
specific guidance where required to correct misperceptions about the 
effect of the NNSA's act limitations. Since we received the letter, 
there have been instances where the DOE-NNSA relationship has become 
less clear. For example, DOE recently announced that DOE's 
Environmental Management program will begin to report to NNSA 
Administrator, who simultaneously is an Under Secretary for Energy. As 
a result, we have left this recommendation open and still believe 
further clarification of the NNSA-DOE relationship is needed.
    Mr. Langevin. 93) What efficiencies do you recommend going forward?
    Mr. Aloise. Generally, our recommendations have focused on 
improving the effectiveness of NNSA. In our view, focusing unduly on 
efficiencies may disrupt some of the progress NNSA has made over the 
past 12 years. Our ideas on improving effectiveness follow. DOE has 
recently taken a number of actions to improve management of major 
projects, including those overseen by NNSA. For example, DOE has 
updated program and project management policies and guidance in an 
effort to improve the reliability of project cost estimates, better 
assess project risks, and better ensure project reviews that are timely 
and useful and identify problems early. Nevertheless, problems persist, 
as we noted in our February and June 2012 testimonies that summarized 
recent reports. [GAO-12-473T.] In particular, we noted that DOE needs 
to ensure that NNSA has the capacity--that is, the people and other 
resources--to resolve its project management difficulties and that it 
has a program to monitor and independently validate the effectiveness 
and sustainability of its corrective measures. This capacity and 
monitoring program are particularly important as NNSA embarks on its 
long-term, multibillion-dollar effort to modernize the nuclear security 
enterprise.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. HEINRICH
    Mr. Heinrich. 94) Based on the testimony, it appears that the keys 
to success are (1) finding the proper balance between oversight and 
operations, (2) strong leadership at NNSA, and (3) deep partnership 
between senior NNSA officials and the national security lab directors. 
But it's hard to legislate balance, leadership and good behavior. If 
you were to have the opportunity to be the NNSA Administrator again, 
what would you want in your tool chest to address each of these three 
issues?
    Mr. Brooks. I agree with your conclusion that the three factors you 
cite are the keys to NNSA's success (or that of almost any other 
organization). In order to find the proper balance between oversight 
and operations, I would want it to be clear that my chain of command 
and ultimately me personally were the ones responsible and that we were 
not to be second guessed by other entities. I believe this is the only 
one of the three factors you cite that is amenable to legislation.
    With regard to strong leadership at NNSA, I believe existing law 
gives the Administrator all the authority he or she requires to select 
the right officials and to establish internal procedures to allow them 
to do their job. I was extremely fortunate during my tenure to have an 
outstanding group of career civil servants in leadership positions. My 
attempts to establish a ``strong site manager'' model (described in a 
previous response) were, I believe, correct. Thus, existing Federal law 
is adequate in this area. I believe, however, that it is necessary to 
find a way of giving new managers more effective training. From my 30 
years in the military and the Department of Defense, I am struck by how 
much more time is spent on training the career leadership in those 
organizations. I do not have specific recommendations in this area 
which is, of course, not an exclusive concern of NNSA.
    Finally, with regard to partnership between senior NNSA officials 
and the national security laboratory directors, I do not believe there 
were any tools I needed that I did not have. My experience was that, 
despite the fact that the laboratory directors and I all found frequent 
personal private meetings to be exceptionally useful, such meetings 
were difficult to arrange given the exceptional workload of both 
laboratory directors and senior Federal officials. Obviously there is 
no solution to this except setting priorities on the part of the 
Administrator.
    Mr. Heinrich. 95) Ambassador Brooks, at the end of your written 
testimony you mention that: ``Finally, if the Congress wants--as I 
believe it should--the type of relationship between NNSA and the 
laboratories that I described as part of our vision, it must be 
constantly on guard against the tendency, when problems arise, to ask 
why federal overseers did not prevent the problem though more detailed 
audits and inspections.'' What suggestions would you have for Congress 
to help improve the performance of the NNSA?
    Mr. Brooks. I believe that Congress needs to spend considerable 
time ensuring that it understands the cause of the current problems at 
NNSA. The panel established by the National Defense Authorization Act 
for Fiscal Year 2013 may help. As I have testified, I believe that the 
failure of the current semi-autonomous approach to NNSA will require 
legislation to correct. Given that all change is disruptive, it is 
important to be as certain as possible that those of us seeking to 
improve the situation are dealing with the real problem and not taking 
action to solve problems that may have existed in the past but are not 
current issues. Thus I believe the Congress must take all testimony of 
those of us whose experience is several years in the past with some 
degree of skepticism.
    The other thing that this committee can do is to serve as a 
champion for NNSA on the Hill. I was extremely fortunate during my 
tenure to have strong and bipartisan support from this committee. I 
understand that that situation continues.

    Mr. Heinrich. 96) Based on the testimony, it appears that the keys 
to success are (1) finding the proper balance between oversight and 
operations, (2) strong leadership at NNSA, and (3) deep partnership 
between senior NNSA officials and the national security lab directors. 
But it's hard to legislate balance, leadership and good behavior. If 
you were to have the opportunity to be the NNSA Administrator, what 
would you want in your tool chest to address each of these three 
issues?
    Dr. Kuckuck. The Administrator would need a true commitment, and 
visible support from the Congress and the Administration for a new, 
balanced NNSA. A convincing commitment from those entities would then 
allow the enticement of top scientific and management talent to serve 
as NNSA leadership--a condition that does not exist today. The 
Administrator and his/her strong leadership team could then establish 
the proper balanced oversight model and develop the partnerships that 
are necessary not only with the laboratories, but also across the 
entire NNSA complex and with external partners and customers. This 
would not be achievable overnight even with the best of leadership.

                                  <all>

</pre></body></html>
